No. 20A21

In the Supreme Court of the United States
BEVERLY CLARNO, Oregon Secretary of State,
Applicant,
v.
PEOPLE NOT POLITICIANS OREGON, COMMON CAUSE, LEAGUE OF WOMEN
VOTERS OF OREGON, NAACP OF EUGENE/SPRINGFIELD, INDEPENDENT
PARTY OF OREGON, and C. NORMAN TURRILL,
Respondents.
APPENDIX A TO OPPOSITION TO APPLICATION FOR STAY
Declaration of C. Norman Turrill in Support of
Plaintiffs’ Motion for a Temporary Restraining Order
People Not Politicians Oregon et al. v. Clarno, No. 6:20-cv-01053-MC (D. Or.)

STEPHEN ELZINGA
SHERMAN, SHERMAN,
JOHNNIE & HOYT, LLP
693 Chemeketa Street NE
Salem, OR 97301
KATHAY FENG
DAN VICUNA
COMMON CAUSE
453 S. Spring Street, Suite 401
Los Angeles, CA 90013

R. ADAM LAURIDSEN
JAY RAPAPORT
Counsel of Record
DAVID J. ROSEN
TARA M. RANGCHI
KEKER, VAN NEST &
PETERS LLP
633 Battery Street
San Francisco, CA 94111
(415) 391-5400
jrapaport@keker.com

Counsel for Respondents

Case 6:20-cv-01053-MC

Document 5

Filed 06/30/20

Page 1 of 11

STEVE ELZINGA
Oregon Bar No. 123102
SHERMAN, SHERMAN, JOHNNIE & HOYT, LLP
693 Chemeketa St. NE
Salem, OR 97301
Telephone: 503-364-2281
steve@shermlaw.com
Attorneys for Plaintiffs
PEOPLE NOT POLITICIANS OREGON,
COMMON CAUSE, LEAGUE OF WOMEN
VOTERS OF OREGON, NAACP OF
EUGENE/SPRINGFIELD, INDEPENDENT
PARTY OF OREGON, and C. NORMAN
TURRILL

UNITED STATES DISTRICT COURT
DISTRICT OF OREGON
EUGENE DIVISION
PEOPLE NOT POLITICIANS OREGON,
Case No. 20-01053-MC
COMMON CAUSE, LEAGUE OF WOMEN
VOTERS OF OREGON, NAACP OF
DECLARATION OF C. NORMAN
EUGENE/SPRINGFIELD, INDEPENDENT
TURRILL IN SUPPORT OF
PARTY OF OREGON, and C. NORMAN
PLAINTIFFS’ MOTION FOR A
TEMPORARY RESTRAINING ORDER
TURRILL,
Plaintiffs,
v.
BEVERLY CLARNO, OREGON
SECRETARY OF STATE,
Defendants.

1
DECLARATION OF C. NORMAN TURRILL IN SUPPORT OF PLAINTIFFS’ MOTION FOR A TEMPORARY
RESTRAINING ORDER (People Not Politicians, et al. v. Beverly Clarno, Secretary of State)
1386656

Case 6:20-cv-01053-MC

Document 5

Filed 06/30/20

Page 2 of 11

I, C. NORMAN TURRILL, declare that:
1.

I am a Chief Petitioner for Initiative Petitions (IPs) 57, 58, and 59. I have been a

resident of the State of Oregon since 2001. I have been a member of the League of Women
Voters (LWV) since the 1970s. I have been engaged in ballot measure signature-gathering
campaigns for decades. Normally, such campaigns gather signatures by passing around
clipboards, sheets, and pens on the streets in high-traffic public locations, such as outside grocery
stores, in shopping malls, parks, public transit stations, farmers markets, and at large public
gatherings, such as parades, concerts, fairs, and rallies. LWV members have been active
volunteers in ballot measure campaigns, both in registering voters, and also in seeking signatures
for those ballot measures endorsed by the League.
2.

On November 12, 2019, we filed with the Oregon Secretary of State the

prospective petitions for what were later designated Initiative Petition (IP) 57 and, on
November 13, IPs 58 and 59 (collectively, “People Not Politicians” [“PNP”]). The intention of
the PNP IPs was to amend the Oregon Constitution to create an independent redistricting
commission to draw Oregon’s electoral maps for the State Senate, State House, and U.S. House
of Representatives.
3.

Under Oregon law, we were then required to submit 1,000 valid sponsorship

signatures to qualify the IPs for ballot title drafting. Over the course of 10 days, from November
25 through December 4, 2019, which included the Thanksgiving holiday, we gathered signatures
by live, on-the-street signature solicitations by paid signature gatherers. On or about December

2
DECLARATION OF C. NORMAN TURRILL IN SUPPORT OF PLAINTIFFS’ MOTION FOR A TEMPORARY
RESTRAINING ORDER (People Not Politicians, et al. v. Beverly Clarno, Secretary of State)
1386656

Case 6:20-cv-01053-MC

Document 5

Filed 06/30/20

Page 3 of 11

5, 2019 for each of the three IPs, we submitted in excess of 2,200 signatures to meet the 1,000valid-signature requirement.
4.

Beginning no later than January 2020, the PNP Executive Committee (EC), of

which I am the Chair, and whose meetings I attended, focused on efforts for outreach, including
presentations to local entities throughout the state, and participating in community meetings, to
bring attention to the PNP campaign. It was the consensus of the EC that we would rely
principally on paid signature circulators, supplemented by volunteer circulators, to gather the
required 149,360 valid signatures to qualify the IPs for the November 2020 general election
ballot. Before the end of January 2020, the EC was considering proposals for multiple spring
public events.
5.

The EC members were aware that this was our last once-in-a-decade opportunity

to create a redistricting commission in time for the 2021 redistricting process.
6.

On January 30, 2020, the ballot titles for IPs 57, 58, and 59 were certified by the

Oregon Attorney General.
7.

The EC continued to discuss planning of in-person events at its February

meetings. In the first half of February, EC member Rebecca Tweed had three presentations
scheduled on the PNP campaign. At the February 11 EC meeting, signature-gathering was
discussed, as were more presentations by Tweed to civic, business, and education groups about
PNP. As many as five events a week were scheduled in February. The February 18 EC meeting
heard of six upcoming events at which I, Tweed, or both of us were scheduled to present.

3
DECLARATION OF C. NORMAN TURRILL IN SUPPORT OF PLAINTIFFS’ MOTION FOR A TEMPORARY
RESTRAINING ORDER (People Not Politicians, et al. v. Beverly Clarno, Secretary of State)
1386656

Case 6:20-cv-01053-MC

Document 5

Filed 06/30/20

Page 4 of 11

Common Cause discussed its plans to bring three to four California Citizens Redistricting
Commissioners to travel throughout Oregon for a series of voter education events in April.
8.

On February 13, 2020, the certified IP 57 ballot title was appealed to the Oregon

Supreme Court.
9.

At the March 3 EC meeting, we discussed the impact of legal challenges to the

ballot title as it affected signature gathering. I told the EC that we should start preparing for
signature gathering now, so that the campaign is ready to hit the streets once the legal challenges
have concluded. EC member Kate Titus, executive director of Common Cause Oregon, stressed
at the meeting that signature gathering is a great way to engage the public, who suggested that
Common Cause and the League of Women Voters develop a campaign piece. I stated at the
meeting that the campaign’s finances would improve once we hit the streets (began public
signature-gathering), and by doing so, create a sense of urgency about the campaign. The
meeting included the possible initial screening of the movie “Slay The Dragon” (concerning
gerrymandering reform) at a movie theater at Portland State University (PSU). A staff organizer
reported that the campaign was working to organize events across the state. A plan was in
development to meet with state legislators at the state Capitol to present the PNP campaign, and
answer their questions. A Portland City Commissioner was to host a panel on the campaign at
PSU. The EC was informed of at least four presentations and forums about the campaign
already scheduled for March.

4
DECLARATION OF C. NORMAN TURRILL IN SUPPORT OF PLAINTIFFS’ MOTION FOR A TEMPORARY
RESTRAINING ORDER (People Not Politicians, et al. v. Beverly Clarno, Secretary of State)
1386656

Case 6:20-cv-01053-MC

10.

Document 5

Filed 06/30/20

Page 5 of 11

I and other members of the EC became aware that on March 8, 2020, Governor

Brown issued Executive Order 20-03 (“EO”), which declared a public health emergency for 60
days from the verbal proclamation on March 7. EO 20-03 noted that the virus:
… spreads person-to-person through coughing and sneezing, close personal
contact, such as touching or shaking hands, or touching an object or surface
with the virus on it, and then touching your mouth, nose, or eyes.
(EO 20-03, p. 1; boldfacing added.) This Order was followed on March 12 by EO 20-05 (no
gatherings of 250 people or more; three feet of social distancing), on March 17 by EO 20-07 (no
gatherings of 25 or more people; businesses and services “encouraged to implement social
distancing protocols”), EO 20-08 (school closures; child care), and EO 20-09 (live higher
education instruction suspended).
11.

At the March 10 EC meeting, the COVID-19 virus was discussed for the first

time. One EC member was concerned that, in PNP’s process to select a campaign consulting
firm, one of the firms relied heavily on a single individual, and the member expressed concern
about his services to PNP if he were infected by the virus. I mentioned that the virus would
reduce the grassroots efforts of the LWV, because I knew from my more than four decades of
membership in the LWV that most LWV members were seniors -- that part of the population is
unusually vulnerable to the virus. I am 76 years old. I am part of the population that is most
vulnerable to the virus. In previous signature-gathering campaigns, I had personally gathered
thousands of signatures. In March 2020, I became afraid that I could not gather signatures for
the PNP campaign because of the risks to my health from the virus. We learned that the
signature-gathering organization was “ready to go.” One EC member characterized the virus as
an interruption, in response to which the campaign needed to “expedite” its efforts, as parts of
5
DECLARATION OF C. NORMAN TURRILL IN SUPPORT OF PLAINTIFFS’ MOTION FOR A TEMPORARY
RESTRAINING ORDER (People Not Politicians, et al. v. Beverly Clarno, Secretary of State)
1386656

Case 6:20-cv-01053-MC

Document 5

Filed 06/30/20

Page 6 of 11

Oregon could be completely shut down. An EC member asked why the campaign was not
considering activating online petitions. An EC member said that the campaign would be making
e-petitions available, but that the petitions aren’t printed, and there is uncertainty as to whether
signers would have to print out the full text of the measure and submit it with their signature
sheet. The screening of the gerrymandering movie “Slay The Dragon” was moved to April. The
planning of the Salem event at the state capitol continued. Four upcoming presentations about
the campaign were announced.
12.

At its March 17 meeting, the EC discussed signature gathering on all three IPs

with the virus in force. An EC member stated that PNP was looking at the first week in April,
and needed to make a decision this week on how to move forward with the firm. There was a
discussion on the use of electronic petitions (“e-sheets”). The EC discussed the impact of the
crash of the stock market and business closures on donations to the campaign.
13.

The EC established a COVID-19 “Contingency Subcommittee” which met on

March 20, which I attended. The single meeting of the subcommittee heard that general public
signature solicitation has not been prohibited, but is slowing, and that door-to-door solicitations
are being attempted. I explained the ongoing ambiguity from the Secretary of State’s office on
the issue of whether a signer of an e-sheet must return the full text of the proposal with the
signature. The need was expressed to monitor the situation daily as to how the government and
virus restrictions will impact the campaign. A partner in the PNP campaign reported that, last
week, it suspended recruitment emails for signature gathering. The question before the EC was
how we could move the campaign forward under these extremely fluid circumstances. There
was discussion of what video platforms the campaign would use going forward.
6
DECLARATION OF C. NORMAN TURRILL IN SUPPORT OF PLAINTIFFS’ MOTION FOR A TEMPORARY
RESTRAINING ORDER (People Not Politicians, et al. v. Beverly Clarno, Secretary of State)
1386656

Case 6:20-cv-01053-MC

14.

Document 5

Filed 06/30/20

Page 7 of 11

On March 23, Governor Brown issued the unprecedented and sweeping EO 20-12

(Stay Home, Save Lives [“SHSL Order”]) which, among other prohibitions, required individuals
“to the maximum extent possible” “stay at home or at their place of residence”, and prohibited
any gatherings “if a distance of at least six feet between individuals cannot be maintained.” The
order had no ending date, and so would stay in effect until terminated by the Governor.
15.

At its March 24 meeting, the EC convened in awareness of the SHSL Order of the

day before. An EC member noted that the campaign cannot now collect signatures in person, no
signature-gathering campaign in Oregon has experienced this situation before, even if the tensignature petitions are mailed to supporting persons, they can’t canvass themselves, and that no
campaign has ever tried a statewide mail-only signature-gathering effort. I knew that if the PNP
campaign was now going to rely exclusively on downloadable and mail petition signaturegathering methods, it would have to build that operation from scratch, with only about 13 weeks
left to gather and submit signatures. Mail solicitation would be a far more complicated process
than street solicitation, because most homes do not have the capacity to print documents, doublesided where necessary, on the required 20-pound paper, and any printed petition would still need
to be addressed and mailed by the signing party, creating additional barriers to participation.
Another EC participant commented that an all-mail signature-gathering drive is “uncharted
territory.” Donors will be skeptical about supporting PNP. I noted that it was still unclear as to
whether the Secretary of State would require that every submitted signature be accompanied by a
complete copy of the IP.

7
DECLARATION OF C. NORMAN TURRILL IN SUPPORT OF PLAINTIFFS’ MOTION FOR A TEMPORARY
RESTRAINING ORDER (People Not Politicians, et al. v. Beverly Clarno, Secretary of State)
1386656

Case 6:20-cv-01053-MC

16.

Document 5

Filed 06/30/20

Page 8 of 11

On March 27, the Secretary of State posted the state Supreme Court’s March 26

ruling that the appeal of the ballot title was “not well-taken,” and that the Court certified to the
Secretary of State the Attorney General’s certified ballot title.
17.

At its March 31 meeting, an EC member told the EC that the campaign would

need about 213,000 signatures to meet the required number of valid signatures (149,360). Even
by mailing to one million voters, to achieve that number of signatures would require a 25 percent
response rate to the mailing. An EC member told the EC if the campaign were lucky, the
restrictions would be lifted in mid-May or in June, and the circulators could hit the streets.
18.

At the April 3 EC meeting, one member commented that the campaign is looking

at maybe three weeks in June to do normal petitioning if the campaign was lucky.
19.

It was not until April 9—less than 90 days before the July 2 submission

deadline—that the Secretary of State’s office approved the petition sheet templates with the color
based on whether the circulator was paid or a volunteer, thus clearing the PNP campaign to begin
collecting the necessary 149,360 signatures.
20.

At the May 1 EC meeting, an EC member noted that the campaign strategy

assumed a month of on-the-ground signature gathering.
21.

At the May 5 EC meeting, the EC heard that Governor Brown may be lifting

restrictions in some Oregon counties, enabling in-person signature gathering.
22.

On or about May 11, 2020, PNP launched an online portal for Oregonians to

view, download and print the IP 57 petition and signature page. PNP built this portal from
8
DECLARATION OF C. NORMAN TURRILL IN SUPPORT OF PLAINTIFFS’ MOTION FOR A TEMPORARY
RESTRAINING ORDER (People Not Politicians, et al. v. Beverly Clarno, Secretary of State)
1386656

Case 6:20-cv-01053-MC

Document 5

Filed 06/30/20

Page 9 of 11

scratch, highlighting the rules for signing downloaded petitions as best as we could ascertain in
the uncertain environment under Stay Home restrictions. EC member Common Cause
immediately emailed approximately 30,000 Oregon members. The first day response caused the
site to crash and require capacity upgrades. Many people asked how to obtain a petition if they
could not print at home.
23.

The uncertainty of access to traditional street signature-gathering for ballot

measures during this period adversely affected decisions of major donors to support the
campaign. At the May 12 EC meeting, the campaign learned that a major prospective donor that
had been considering a substantial six-figure donation to PNP had decided not to do so. Other
potential donors declined, because the conditions did not exist to mount a reliably successful
signature-gathering campaign. Serious concerns were expressed about whether the campaign
would be able to gather the required signatures. The EC decided to proceed with a half-millionpiece mailing to reach over one million voters. The new strategy targeted mailings to high
propensity voters, buoyed by calculations that the signatures returned would have high validity
rates.
24.

At the May 19 EC meeting, street signature gathering was discussed. Some

anticipated that stay-at-home restrictions would be relaxed in early June. Others were not
positive about being perhaps the only public signature gatherers out on the streets.
25.

We designed the 500,000-piece mailing plan and set up all of this without any

clear sense of how long the stay-home orders would stay in place. I learned that a PNP coalition

9
DECLARATION OF C. NORMAN TURRILL IN SUPPORT OF PLAINTIFFS’ MOTION FOR A TEMPORARY
RESTRAINING ORDER (People Not Politicians, et al. v. Beverly Clarno, Secretary of State)
1386656

Case 6:20-cv-01053-MC

Document 5

Filed 06/30/20

Page 10 of 11

member, Common Cause, organized an effort to send texts to 25,220 Oregon voters with a link
allowing them to print a petition, which they could sign and mail back.
26.

As the shelter-in-place (SIP) aspects of the Governor’s orders remained in force

into the spring, the EC realized that, because of the economic toll imposed by the reducing or
shuttering of businesses, planned and anticipated contributions to support PNP either failed to
materialize, or were greatly reduced from contributions promised or expected.
27.

The ongoing uncertainty of the Stay Home Order made planning a signature-

gathering strategy for PNP difficult. Only on June 12 was the uncertainty over the legality of
Governor Brown’s SHSL and associated orders relating to the pandemic resolved by the Oregon
Supreme Court in its decision in Elkhorn Baptist Church v. Brown, 366 Or. 506, 543 (2020).
28.

Unlike other campaigns that had been cleared for signature gathering before the

Governor’s March and April 2020 Executive Orders were issued, the PNP campaign was directly
impacted by the orders, and the evolving government response to the pandemic.
29.

Beginning the week of May 25 -- little more than a month before the submission

deadline of July 2 -- PNP’s retained mail house began mailing petitions to 500,000 Oregonian
voter households, which included over 1.1 million voters. These petition packets contained the
text of the petition, signature page, detailed instructions, and a postage-prepaid preaddressed
return envelope that would allow every eligible person in the household to sign a petition and
mail it back.
30.

The PNP campaign has been receiving approximately 1,000 to 4,000 petition

sheets a day from the half-million-piece mailing and online efforts, which is, by any measure, a
10
DECLARATION OF C. NORMAN TURRILL IN SUPPORT OF PLAINTIFFS’ MOTION FOR A TEMPORARY
RESTRAINING ORDER (People Not Politicians, et al. v. Beverly Clarno, Secretary of State)
1386656

Case 6:20-cv-01053-MC

Document 5

Filed 06/30/20

Page 11 of 11

tremendous public response. To date, I understand the PNP campaign has collected over 60,000
signatures and counting under truly extraordinary and enormously constrictive circumstances.
However, because state and local regulations effectively barred the PNP campaign from using
traditional methods of signature-gathering, the campaign has only collected that number of
signatures.
I declare under penalty of perjury that the foregoing is true and correct.
Dated: June 30, 2020

s/ C. Norman Turrill
C. NORMAN TURRILL

11
DECLARATION OF C. NORMAN TURRILL IN SUPPORT OF PLAINTIFFS’ MOTION FOR A TEMPORARY
RESTRAINING ORDER (People Not Politicians, et al. v. Beverly Clarno, Secretary of State)
1386656

No. 20A21

In the Supreme Court of the United States
BEVERLY CLARNO, Oregon Secretary of State,
Applicant,
v.
PEOPLE NOT POLITICIANS OREGON, COMMON CAUSE, LEAGUE OF WOMEN
VOTERS OF OREGON, NAACP OF EUGENE/SPRINGFIELD, INDEPENDENT
PARTY OF OREGON, and C. NORMAN TURRILL,
Respondents.
APPENDIX B TO OPPOSITION TO APPLICATION FOR STAY
Declaration of Candalynn Johnson in Support of
Plaintiffs’ Motion for a Temporary Restraining Order
People Not Politicians Oregon et al. v. Clarno, No. 6:20-cv-01053-MC (D. Or.)

STEPHEN ELZINGA
SHERMAN, SHERMAN,
JOHNNIE & HOYT, LLP
693 Chemeketa Street NE
Salem, OR 97301
KATHAY FENG
DAN VICUNA
COMMON CAUSE
453 S. Spring Street, Suite 401
Los Angeles, CA 90013

R. ADAM LAURIDSEN
JAY RAPAPORT
Counsel of Record
DAVID J. ROSEN
TARA M. RANGCHI
KEKER, VAN NEST &
PETERS LLP
633 Battery Street
San Francisco, CA 94111
(415) 391-5400
jrapaport@keker.com

Counsel for Respondents

Case 6:20-cv-01053-MC

Document 4

Filed 06/30/20

Page 1 of 4

STEVE ELZINGA
Oregon Bar No. 123102
SHERMAN, SHERMAN, JOHNNIE & HOYT, LLP
693 Chemeketa St. NE
Salem, OR 97301
Telephone: 503-364-2281
steve@shermlaw.com
Attorneys for Plaintiffs
PEOPLE NOT POLITICIANS OREGON,
COMMON CAUSE, LEAGUE OF WOMEN
VOTERS OF OREGON, NAACP OF
EUGENE/SPRINGFIELD, INDEPENDENT
PARTY OF OREGON, and C. NORMAN
TURRILL

UNITED STATES DISTRICT COURT
DISTRICT OF OREGON
EUGENE DIVISION
PEOPLE NOT POLITICIANS OREGON,
Case No. 20-01053-MC
COMMON CAUSE, LEAGUE OF WOMEN
VOTERS OF OREGON, NAACP OF
DECLARATION OF CANDALYNN
EUGENE/SPRINGFIELD, INDEPENDENT
JOHNSON IN SUPPORT OF
PARTY OF OREGON, and C. NORMAN
PLAINTIFFS’ MOTION FOR A
TURRILL,
TEMPORARY RESTRAINING ORDER
Plaintiffs,
v.
BEVERLY CLARNO, OREGON
SECRETARY OF STATE,
Defendants.

1
DECLARATION OF CANDALYNN JOHNSON IN SUPPORT OF PLAINTIFFS’ MOTION FOR A
TEMPORARY RESTRAINING ORDER (People Not Politicians, et al. v. Beverly Clarno, Secretary of State)
1386658

Case 6:20-cv-01053-MC

Document 4

Filed 06/30/20

Page 2 of 4

I, CANDALYNN JOHNSON, declare that:
1.

I have been a resident of Oregon since 2005. I have been active in Oregon

politics and campaigns since 2014.
2.

I have been involved in the People Not Politicians (PNP) campaign to qualify

Initiative Petition (IP) 57 for the 2020 general election ballot, and its predecessor efforts and
activities, since August of 2018.
3.

My duties of the PNP campaign since 2019 have included, and do include:

Acting as official spokesperson for the campaign at events and speaking engagements;
supporting and actively expanding the PNP coalition through outreach; management of logistical
daily activities for the petition-processing office; recruitment and on-boarding of campaign
volunteers; internal and third-party communications; administrative needs (including serving as
the minutes-taker at all meetings of the PNP campaign’s Executive Committee; I attended all
Executive Committee meetings); community outreach; building and maintaining the campaign
calendar for events; database management and communications with the public via email, social
media, and speaking engagements.
4.

My efforts included holding, from late 2018 into 2020, around the state, a series

of forums and presentations on the need for redistricting reform, assisting in the drafting of the
initiatives in 2019, and recruiting volunteer circulators for in-person signature collection in early
2020.
5.

Among my initial duties as PNP deputy campaign manager starting in January

2020 were to seek out persons and entities who might be, or were, in favor of IP 57, and to
2
DECLARATION OF CANDALYNN JOHNSON IN SUPPORT OF PLAINTIFFS’ MOTION FOR A
TEMPORARY RESTRAINING ORDER (People Not Politicians, et al. v. Beverly Clarno, Secretary of State)
1386658

Case 6:20-cv-01053-MC

Document 4

Filed 06/30/20

Page 3 of 4

increase the number of coalition partners. In performing those functions, I have sought out,
talked with, had meetings with, recruited, or made presentations throughout most of Oregon, to a
minimum total of a thousand persons, and at least 30 entities (such as academic, service, civic,
and professional groups) from as early as September 2018 to today. I know that other officers
for the PNP campaign were similarly engaged on behalf of the campaign, because I was present
at all meetings of the campaign’s Executive Committee (usually held weekly, if not more
frequently), and took notes of the meetings for the campaign. Before the Executive Orders shut
down volunteer signature gathering, I had a list that include at least of 77 people who had
volunteered to be circulators.
6.

I was fully engaged in these activities until early March, when groups with whom

I had scheduled meetings began cancelling them, telling me they were doing so because of fears
of the COVID-19 virus. Further, in response to the Governor’s Executive Orders and the
restrictions therein commencing in mid-March, I had to greatly reduce, and finally eliminate, my
live, in-person interactions with people on behalf of the PNP campaign. The PNP campaign was
preparing to sponsor an appearance in April 2020 by some of the members of California’s citizen
redistricting commission, on which IP 57’s commission was largely based; that event had to be
cancelled because of the restrictive Executive Orders. Some groups with whom I had planned to
meet in person, and now could not do so because of the Executive Orders, were unable to confer
with me via various video platforms, because of lack of capability, access, or both.
7.

Despite these tremendous challenges, PNP has engaged in a good faith effort to

meet the qualifying signature requirements through the unconventional means of relying
exclusively on downloadable and mail petition signature-gathering methods. However, with that
3
DECLARATION OF CANDALYNN JOHNSON IN SUPPORT OF PLAINTIFFS’ MOTION FOR A
TEMPORARY RESTRAINING ORDER (People Not Politicians, et al. v. Beverly Clarno, Secretary of State)
1386658

Case 6:20-cv-01053-MC

Document 4

Filed 06/30/20

Page 4 of 4

diminished access to voters, I could not produce the campaign results, in solicitation and adding
coalition members, that I was able to do before the Executive Orders were issued. In my
opinion, these restrictions greatly reduced the overall impact and efficacy of the PNP campaign,
and my own ability to recruit, inspire, activate, and gather more supporters for the PNP
campaign.
I declare under penalty of perjury that the foregoing is true and correct.
Dated: June 30, 2020

s/ Candalynn Johnson
CANDALYNN JOHNSON

4
DECLARATION OF CANDALYNN JOHNSON IN SUPPORT OF PLAINTIFFS’ MOTION FOR A
TEMPORARY RESTRAINING ORDER (People Not Politicians, et al. v. Beverly Clarno, Secretary of State)
1386658

No. 20A21

In the Supreme Court of the United States
BEVERLY CLARNO, Oregon Secretary of State,
Applicant,
v.
PEOPLE NOT POLITICIANS OREGON, COMMON CAUSE, LEAGUE OF WOMEN
VOTERS OF OREGON, NAACP OF EUGENE/SPRINGFIELD, INDEPENDENT
PARTY OF OREGON, and C. NORMAN TURRILL,
Respondents.
APPENDIX C TO OPPOSITION TO APPLICATION FOR STAY
Order Certifying Ballot Title
Uherbelau v. Rosenblum, No. S067451 (Or.)

STEPHEN ELZINGA
SHERMAN, SHERMAN,
JOHNNIE & HOYT, LLP
693 Chemeketa Street NE
Salem, OR 97301
KATHAY FENG
DAN VICUNA
COMMON CAUSE
453 S. Spring Street, Suite 401
Los Angeles, CA 90013

R. ADAM LAURIDSEN
JAY RAPAPORT
Counsel of Record
DAVID J. ROSEN
TARA M. RANGCHI
KEKER, VAN NEST &
PETERS LLP
633 Battery Street
San Francisco, CA 94111
(415) 391-5400
jrapaport@keker.com

Counsel for Respondents

R ECEI VED
27 Mar 2020 1:22pm

Elections Division

IN THE SUPREME COURT OF THE STATE OF OREGON
BECCA UHERBELAU,
Petitioner,
v.
ELLEN ROSENBLUM, Attorney General, State of Oregon,
Respondent.
S067451
APPELLATE JUDGMENT
Upon consideration by the court.
Petitioner's argument that the Attorney General's certified ballot title for Initiative Petition
No. 57 (2020) does not comply substantially with ORS 250.035(2) is not well taken.
The court certifies to the Secretary of State the Attorney General's certified ballot title for
the proposed ballot measure. A copy of the Attorney General's certified ballot title is
appended to this order.

DESIGNATION OF PREVAILING PARTY AND AWARD OF COSTS
Prevailing party: Respondent
[ X ] No costs allowed
Appellate Judgment Effective Date:
March 27, 2020

c: C Norman Turrill
Steven C Berman
Benjamin Gutman
Gregory A Chaimov

SUPREME COURT
(seal)

Sharon K Waterman
Carson L Whitehead
Shannon T Reel
Bev Clarno

asb

APPELLATE JUDGMENT
REPLIES SHOULD BE DIRECTED TO: State Court Administrator, Records Section,
Supreme Court Building, 1163 State Street, Salem, OR 97301-2563
Page 1 of 2

R ECEI VED
27 Mar 2020 1:22pm

Elections Division

APPELLATE JUDGMENT
REPLIES SHOULD BE DIRECTED TO: State Court Administrator, Records Section,
Supreme Court Building, 1163 State Street, Salem, OR 97301-2563
Page 2 of 2

R ECEI VED
MAR 26, 2020 10:30am

Elections Division

R ECEI VED
MAR 26, 2020 10:30am

Elections Division

No. 20A21

In the Supreme Court of the United States
BEVERLY CLARNO, Oregon Secretary of State,
Applicant,
v.
PEOPLE NOT POLITICIANS OREGON, COMMON CAUSE, LEAGUE OF WOMEN
VOTERS OF OREGON, NAACP OF EUGENE/SPRINGFIELD, INDEPENDENT
PARTY OF OREGON, and C. NORMAN TURRILL,
Respondents.
APPENDIX D TO OPPOSITION TO APPLICATION FOR STAY
Historical Data Concerning Oregon Citizen Initiative Petitions

STEPHEN ELZINGA
SHERMAN, SHERMAN,
JOHNNIE & HOYT, LLP
693 Chemeketa Street NE
Salem, OR 97301
KATHAY FENG
DAN VICUNA
COMMON CAUSE
453 S. Spring Street, Suite 401
Los Angeles, CA 90013

R. ADAM LAURIDSEN
JAY RAPAPORT
Counsel of Record
DAVID J. ROSEN
TARA M. RANGCHI
KEKER, VAN NEST &
PETERS LLP
633 Battery Street
San Francisco, CA 94111
(415) 391-5400
jrapaport@keker.com

Counsel for Respondents

The following chart identifies the Oregon citizen initiative petitions that
qualified for the ballot in the 2010, 2012, 2014, 2016, and 2018 election cycles and
the dates on which the initiatives were approved for signature collection. Asterisks
indicate approval dates close to or after April 9, the date in the current election on
which Initiative Petition 57 was approved for signature collection.
The underlying data is drawn from the Oregon Secretary of State Elections
Division’s Initiative, Referendum, and Referral search tool, available at
https://bit.ly/2ELzsAJ.
Election Cycle
(November)
2010
2010
2010
2010
2012
2012
2012
2012
2012
2012
2012
2014
2014
2014
2014
2016
2016
2016
2016
2018
2018
2018
2018

Ballot Measure
Number
73
74
75
76
79
80
81
82
83
84
85
89
90
91
92
97
98
99
100
103
104
105
106

1
1389117

Date Approved for
Circulation
September 18, 2008
August 27, 2008
February 19, 2010
*April 8, 2010
August 2, 2010
March 24, 2011
*April 11, 2012
February 27, 2012
February 27, 2012
January 27, 2012
*April 17, 2012
December 20, 2013
*May 15, 2014
*March 28, 2014
*May 15, 2014
September 1, 2015
*March 22, 2016
January 22, 2016
January 13, 2016
*March 7, 2018
January 29, 2018
October 11, 2017
February 24, 2017

No. 20A21

In the Supreme Court of the United States
BEVERLY CLARNO, Oregon Secretary of State,
Applicant,
v.
PEOPLE NOT POLITICIANS OREGON, COMMON CAUSE, LEAGUE OF WOMEN
VOTERS OF OREGON, NAACP OF EUGENE/SPRINGFIELD, INDEPENDENT
PARTY OF OREGON, and C. NORMAN TURRILL,
Respondents.
APPENDIX E TO OPPOSITION TO APPLICATION FOR STAY
Declaration of Ted Blaszak in Support of
Plaintiffs’ Motion for a Temporary Restraining Order
People Not Politicians Oregon et al. v. Clarno, No. 6:20-cv-01053-MC (D. Or.)

STEPHEN ELZINGA
SHERMAN, SHERMAN,
JOHNNIE & HOYT, LLP
693 Chemeketa Street NE
Salem, OR 97301
KATHAY FENG
DAN VICUNA
COMMON CAUSE
453 S. Spring Street, Suite 401
Los Angeles, CA 90013

R. ADAM LAURIDSEN
JAY RAPAPORT
Counsel of Record
DAVID J. ROSEN
TARA M. RANGCHI
KEKER, VAN NEST &
PETERS LLP
633 Battery Street
San Francisco, CA 94111
(415) 391-5400
jrapaport@keker.com

Counsel for Respondents

Case 6:20-cv-01053-MC

Document 3

Filed 06/30/20

Page 1 of 4

STEVE ELZINGA
Oregon Bar No. 123102
SHERMAN, SHERMAN, JOHNNIE & HOYT, LLP
693 Chemeketa St. NE
Salem, OR 97301
Telephone: 503-364-2281
steve@shermlaw.com
Attorneys for Plaintiffs
PEOPLE NOT POLITICIANS OREGON,
COMMON CAUSE, LEAGUE OF WOMEN
VOTERS OF OREGON, NAACP OF
EUGENE/SPRINGFIELD, INDEPENDENT
PARTY OF OREGON, and C. NORMAN
TURRILL

UNITED STATES DISTRICT COURT
DISTRICT OF OREGON
EUGENE DIVISION
PEOPLE NOT POLITICIANS OREGON,
Case No. 20-01053-MC
COMMON CAUSE, LEAGUE OF WOMEN
VOTERS OF OREGON, NAACP OF
DECLARATION OF TED BLASZAK IN
EUGENE/SPRINGFIELD, INDEPENDENT
SUPPORT OF PLAINTIFFS’ MOTION
PARTY OF OREGON, and C. NORMAN
FOR A TEMPORARY RESTRAINING
TURRILL,
ORDER
Plaintiffs,
v.
BEVERLY CLARNO, OREGON
SECRETARY OF STATE,
Defendants.

1
DECLARATION OF TED BLASZAK IN SUPPORT OF PLAINTIFFS’ MOTION FOR A TEMPORARY
RESTRAINING ORDER (People Not Politicians, et al. v. Beverly Clarno, Secretary of State)
1386657

Case 6:20-cv-01053-MC

Document 3

Filed 06/30/20

Page 2 of 4

I, TED BLASZAK, declare that:
1.

I am the president and owner of Initiative and Referendum Campaign

Management Services (IRCMS), and have been since 2000. I have been managing political
campaigns since 1985. IRCMS has qualified 75 initiatives for the ballot in 14 states, including
Oregon. Through IRCMS, I have qualified 20 measures for the ballot in Oregon. I have been
active in Oregon politics and campaigns since 1998.
2.

I began discussions in the summer of 2019 with the organizers of what became

the People Not Politicians (PNP) campaign to qualify Initiative Petition (IP) 57 for the 2020
general election ballot.
3.

From my experience in Oregon campaigns, I know that, to traditionally qualify a

statewide ballot measure, its organizers must have public support, adequate financing, in-person
access to potential petition signers, endorsers, donors, and volunteer support. As early as
February 2020, all these factors were positive, or trending positive, for the PNP campaign. With
these factors, I have facilitated and qualified several Oregon ballot measures whose signaturegathering efforts have begun later than April 9. Campaigns seeking to qualify their measures for
the ballot by signature-gathering campaigns have successfully gathered and submitted qualifying
signatures to the Oregon Secretary of State in shorter periods of time than the April 9-July 2,
2020, period available to the PNP campaign.
4.

In a traditional signature-gathering campaign, petition circulators (signature

gatherers)—armed with clipboards, petitions, and pens—typically operate in high-traffic public
spaces. The most efficient locations for collection are those where a large number of people
concentrated in a small area, such as public transit stations, shopping centers, farmers markets,
libraries, fairs, rallies, parades, and concerts. Inevitably, in-person signature collection depends
2
DECLARATION OF TED BLASZAK IN SUPPORT OF PLAINTIFFS’ MOTION FOR A TEMPORARY
RESTRAINING ORDER (People Not Politicians, et al. v. Beverly Clarno, Secretary of State)
1386657

Case 6:20-cv-01053-MC

Document 3

Filed 06/30/20

Page 3 of 4

on conversing with strangers in close quarters, while passing around clipboards, sheets, and pens.
To qualify initiatives for the ballot, using paid circulators produces a superior result to the use of
volunteer circulators, because paid circulators dedicate more time to this activity than volunteer
circulators. Face-to-face, in-person communication with a potential petition signer is optimal.
5.

In my opinion, the PNP campaign faced a perfect storm of adverse consequences

starting in mid-March 2020, beginning with the Governor’s Executive Orders successively
restricting and then eliminating, for all practical purposes, the until-now standard, accepted, and
successful method of collecting signatures in person.
6.

PNP’s 500,000-piece signature solicitation mailed in late May was one of the few

that ever attempted this signature-gathering strategy for an initiative in Oregon. This strategy
has never succeeded in Oregon political history for a statewide initiative.
7.

In PNP’s mail signature-soliciting campaign, the statistics were excellent—six

percent of all households returned signatures on the five-line signature sheet included in the
mailing, which also included a postage-paid preaddressed envelope (PPPAE). The returned
PPPAE contained petitions with an average of two signatures.
8.

Despite the Executive Orders, the PNP campaign’s non-PPPAE returns were also

good. I worked in a previous signature-gathering effort with partners and coalitions similar to
PNP’s—the American Association of University Women, the League of Women Voters, and
Common Cause. In the prior campaign, those groups, without the hindrance of any Executive
Orders comparable to those of the spring of 2020, were able to produce approximately 20,000
signatures. In the PNP campaign, measured by the number of non-PPPAE envelopes returned,
the volunteer circulators produced approximately 4,000 signatures.

3
DECLARATION OF TED BLASZAK IN SUPPORT OF PLAINTIFFS’ MOTION FOR A TEMPORARY
RESTRAINING ORDER (People Not Politicians, et al. v. Beverly Clarno, Secretary of State)
1386657

Case 6:20-cv-01053-MC

9.

Document 3

Filed 06/30/20

Page 4 of 4

Based upon my experience in Oregon signature-gathering campaigns, using

normal in-person signature collection efforts, my clients in Oregon ballot measure campaigns
received an average of 15,000-20,000 signatures per week. Under normal signature-gathering
circumstances, including adequate financial, public, and volunteer support, an initiative
campaign could have collected and submitted to the Oregon Secretary of State at least 150,000
valid signatures between April 9 and July 2, 2020.
I declare under penalty of perjury that the foregoing is true and correct.
Dated: June 30, 2020

s/ Ted Blaszak
TED BLASZAK

4
DECLARATION OF TED BLASZAK IN SUPPORT OF PLAINTIFFS’ MOTION FOR A TEMPORARY
RESTRAINING ORDER (People Not Politicians, et al. v. Beverly Clarno, Secretary of State)
1386657

No. 20A21

In the Supreme Court of the United States
BEVERLY CLARNO, Oregon Secretary of State,
Applicant,
v.
PEOPLE NOT POLITICIANS OREGON, COMMON CAUSE, LEAGUE OF WOMEN
VOTERS OF OREGON, NAACP OF EUGENE/SPRINGFIELD, INDEPENDENT
PARTY OF OREGON, and C. NORMAN TURRILL,
Respondents.
APPENDIX F TO OPPOSITION TO APPLICATION FOR STAY
Complaint
People Not Politicians Oregon et al. v. Clarno, No. 6:20-cv-01053-MC (D. Or.)

STEPHEN ELZINGA
SHERMAN, SHERMAN,
JOHNNIE & HOYT, LLP
693 Chemeketa Street NE
Salem, OR 97301
KATHAY FENG
DAN VICUNA
COMMON CAUSE
453 S. Spring Street, Suite 401
Los Angeles, CA 90013

R. ADAM LAURIDSEN
JAY RAPAPORT
Counsel of Record
DAVID J. ROSEN
TARA M. RANGCHI
KEKER, VAN NEST &
PETERS LLP
633 Battery Street
San Francisco, CA 94111
(415) 391-5400
jrapaport@keker.com

Counsel for Respondents

Case 6:20-cv-01053-MC

Document 1

Filed 06/30/20

STEVE ELZINGA
Oregon Bar No. 123102
SHERMAN, SHERMAN, JOHNNIE & HOYT, LLP
693 Chemeketa St. NE
Salem, OR 97301
Telephone: 503-364-2281
steve@shermlaw.com
Attorneys for Plaintiffs
PEOPLE NOT POLITICIANS OREGON,
COMMON CAUSE, LEAGUE OF WOMEN
VOTERS OF OREGON, NAACP OF
EUGENE/SPRINGFIELD, INDEPENDENT
PARTY OF OREGON, and C. NORMAN
TURRILL

UNITED STATES DISTRICT COURT
DISTRICT OF OREGON
EUGENE DIVISION
PEOPLE NOT POLITICIANS OREGON,
Case No. 20-1053
COMMON CAUSE, LEAGUE OF WOMEN
VOTERS OF OREGON, NAACP OF
COMPLAINT
EUGENE/SPRINGFIELD, INDEPENDENT
PARTY OF OREGON, and C. NORMAN
TURRILL,
Plaintiffs,
v.
BEVERLY CLARNO, OREGON
SECRETARY OF STATE,
Defendants.

1
COMPLAINT (People Not Politicians, et al. v. Secretary of State)
1386660

Page 1 of 18

Case 6:20-cv-01053-MC

Document 1

Filed 06/30/20

Page 2 of 18

NATURE OF ACTION
1.

This action arises out the challenges faced by People Not Politicians (PNP) as it

has attempted to qualify an initiative for the November 2020 ballot in the midst of the COVID19 Pandemic (“the Pandemic”). PNP proposes to amend the Oregon Constitution to provide for
the establishment of an independent redistricting commission to draw Oregon’s electoral maps
for the State Senate, State House and U.S. House of Representatives. Toward that end, PNP filed
Initiative Petition 57 (“Initiative”) on November 16, 2019. People Not Politicians, Initiative
2020-057 (Or. 2019). Since the Initiative was filed and People Not Politicians was cleared to
begin signature gathering, however, the Pandemic has gripped our state and country.
2.

In response, all levels of the government have issued social distancing

requirements that preclude the interpersonal contact necessary to gather sufficient signatures to
qualify the Initiative for the November General Election ballot using traditional means. While
Oregon does not require signature gathering to take place only in-person, social distancing
requirements during this pandemic dramatically limited People Not Politicians’ ability to engage
in the interpersonal contact traditionally necessary to collect the number of signatures required to
qualify for the November 2020 ballot.
3.

In an attempt to overcome this unprecedented barrier, PNP embarked on a novel

signature gathering campaign that relies almost exclusively on mail and downloadable petition
signature gathering methods. Despite these herculean alternative efforts, PNP has not (to date)
been able to gather the required number of signatures to qualify for the ballot by the deadline
specified by Oregon law. PNP has requested that the Secretary of State adjust both the signature
requirement and deadline to account for the exceptional circumstances of the pandemic and the
2
COMPLAINT (People Not Politicians, et al. v. Secretary of State)
1386660

Case 6:20-cv-01053-MC

Document 1

Filed 06/30/20

Page 3 of 18

public health restrictions effectively banning traditional signature-gathering methods for the
entirety of PNP’s signature-collection period. The Secretary of State refused to adjust its prePandemic requirements to adjust for the barriers to PNP’s democratic participation that arose
during the pandemic.
4.

Accordingly, Plaintiffs bring this as-applied challenge to Oregon’s threshold and

deadline for signature gathering to qualify for the November General Election ballot.
PARTIES
5.

Plaintiff People Not Politicians Oregon (PNP) is a Petition Committee formed

pursuant to Or. Rev. Stat. § 260.118. PNP’s address is 960 Broadway St. NW, Suite 5, Salem,
OR 97301. PNP drafted and filed the Initiative and is advocating for it to qualify for the
November ballot and for its ultimate passage. PNP is responsible for circulating the initiative for
signature and otherwise qualifying it for the ballot. The interests PNP seeks to protect in this
action, in addition to the ability to place the initiative on the ballot, relate to the voting rights of
all Oregonians, including its supporters and funders, and these interests are germane to PNP’s
purpose.
6.

Plaintiff Common Cause was founded by John Gardner in 1970 as a nonpartisan

“citizens lobby” whose primary mission is to protect and defend the democratic process and
make government accountable and responsive to the interests of ordinary people, not merely to
those of special interests. Common Cause is one of the Nation’s leading democracy
organizations and has over 1.1 million members nationwide and 35 state organizations. Common
Cause has been a leading advocate of reforms designed to make redistricting a fairer, less

3
COMPLAINT (People Not Politicians, et al. v. Secretary of State)
1386660

Case 6:20-cv-01053-MC

Document 1

Filed 06/30/20

Page 4 of 18

partisan, and more transparent process. This work has included drafting ballot initiatives, leading
campaigns to pass reform, and engaging in litigation to end gerrymandering nationwide.
7.

Plaintiff League of Women Voters of Oregon (LWVOR) is a grassroots,

nonpartisan political organization that encourages informed and active participation in
government. LWVOR’s purposes are to influence public policy through education and advocacy
on a wide range of democracy issues, including redistricting reform. LWVOR also works to
encourage active and informed participation in government and to increase understanding of
major policy issues. The League seeks to empower citizens to understand governmental issues
and to participate in the political process.
8.

Plaintiff Eugene/Springfield NAACP (NAACP) is a grassroots nonprofit

organization located at 330 High St, Eugene, OR 97401. The mission of NAACP is to ensure the
political, educational, social, and economic equality of rights of all persons and to eliminate racebased discrimination. The organization’s primary activities include implementation of education
programs and events for public awareness and community building. The NAACP also
coordinates institutional collaborations to increase cultural inclusion in all areas. NAACP
believes that the process of redistricting creates the foundation to all other policy making and
that a redistricting process that eliminates or minimizes the role of Oregonians of diverse
backgrounds does not serve our state. NAACP is dedicated to ensuring that every Oregonian can
participate in our political processes, regardless of race, zip code, socioeconomic status or level
of formal education. NAACP is a member of the Executive Committee for PNP and is similarly
dedicated to qualifying the Initiative for the November ballot, including asking their members to
sign the petition, soliciting volunteers to help with signature gathering activities, and providing
community education about the Initiative.
4
COMPLAINT (People Not Politicians, et al. v. Secretary of State)
1386660

Case 6:20-cv-01053-MC

9.

Document 1

Filed 06/30/20

Page 5 of 18

Plaintiff Independent Party of Oregon (“IPO”) has more than 122,000 members

and is the largest third party, by share of registered voters, in any state in the United States. IPO
focuses on promoting policies to decrease partisanship, to support election reforms, and to
increase transparency in state and local government. IPO believes that redistricting reform, like
that introduced in the Initiative, can make Oregon more responsive to the needs of voters and the
public good. IPO is a member of the Executive Committee of PNP and dedicates considerable
volunteer time and resources to working to qualify the Initiative for the November ballot.
10.

Plaintiff C. Norman Turrill is a Chief Petitioner for Initiative Petition 57. He has

been a resident of the State of Oregon since 2001 and a member of the League of Women Voters
(LWV) since the 1970s. He has engaged in ballot measure signature-gathering campaigns for
decades. Turrill was planning to circulate petitions in support of IP 57 as he has in previous
campaigns, by approaching people in the streets, in high-traffic public locations and at large
public gatherings, with petitions on clipboards. However, Turrill falls into a part of the
population that is most vulnerable to serious health repercussions if he contracts the coronavirus
that causes COVID-19 disease. The Stay Home restrictions did not allow him to circulate the
petition and collect signatures in public in support of IP 57. Turrill personally signed the petition
and if the petition fails, he will be unable to vote for an initiative that he enthusiastically
supports.
11.

Defendant Beverly Clarno is the Oregon Secretary of State and is named as a

Defendant in her official capacity. Secretary Clarno is the chief elections officer in the State of
Oregon and is charged with receiving filed petitions and determining the sufficiency of
signatures. Or. Const. art. IV, § 1, cl. 4(a); Or. Rev. Stat. § 246.110.

5
COMPLAINT (People Not Politicians, et al. v. Secretary of State)
1386660

Case 6:20-cv-01053-MC

Document 1

Filed 06/30/20

Page 6 of 18

JURISDICTION AND VENUE
12.

This is a civil rights action that raises federal questions under the United States

Constitution, particularly the First and Fourteenth Amendments, and the Civil Rights Act of
1871, 42 U.S.C. § 1983.
13.

This Court has federal question jurisdiction pursuant to 28 U.S.C. §§ 1331 and

1343 because this action arises under the U.S. Constitution and seeks equitable and other relief
for the deprivation of constitutional rights under color of state law.
14.

This Court has jurisdiction to grant declaratory relief pursuant to 28 U.S.C. §§

2201 and 2202.
15.

This Court has personal jurisdiction over Defendant, who is sued in her official

capacity. Secretary Clarno is a state official who works in Salem, Oregon.
16.

Venue is proper in this District pursuant to 28 U.S.C. § 1391(b)(1) because

Defendants are State officials working in Oregon. A substantial part of the events giving rise to
these claims occurred and continue to occur in this District, making venue also proper under 28
U.S.C. § 1391(b)(2).
FACTUAL BACKGROUND
A.

The Initiative

17.

On November 12, 2019, Plaintiff filed a prospective initiative petition pursuant to

Or. Rev. Stat. § 250.045. If enacted, the Initiative will amend the Oregon State Constitution to
provide for an independent citizens redistricting commission to draw electoral districts for the
Oregon House, Senate, and U.S. House of Representatives. The commission would be composed
of twelve Oregonians who are free from conflicts of interest and represent the diversity of the
6
COMPLAINT (People Not Politicians, et al. v. Secretary of State)
1386660

Case 6:20-cv-01053-MC

Document 1

Filed 06/30/20

Page 7 of 18

state. The commission would be charged with holding public hearings and providing for public
input and required to draw maps in compliance with strict mapping criteria. See Initiative
Petition 2020-057 (Or. 2019).
18.

On December 5, 2019 sponsorship signatures were submitted for verification

pursuant to Or. Rev. Stat. § 250.045. These signatures were collected over a 10-day period from
November 25 through December 4, 2019, which included the Thanksgiving holiday, through a
signature gathering firm that used in-person, on- the-street petition circulators. Pursuant to Or.
Rev. Stat. § 250.045, no more than 2000 sponsorship signatures could be collected. On
December 20, 2019, the Secretary of State verified 1,656 signatures submitted by PNP and began
the ballot title draft process pursuant to Or. Rev. Stat. § 250.065 and Or. Rev. Stat. § 250.067
19.

On March 27, 2020, the Oregon Supreme Court approved the final ballot title for

Initiative Petition 57.
20.

On April 9, 2020, the Secretary of State approved Initiative Petition 57 for

circulation. PNP immediately began the process of gathering signatures electronically but did not
begin in-person signature gathering because of the stay-at-home orders in place in Oregon, and
the need to protect voters, volunteers and paid signature gatherers from potentially contracting
the virus.
21.

On March 27, 2020, Becca Uherbelau and Emily McClain filed a complaint in

Circuit Court of the State of Oregon for the County of Marion alleging that Oregon Secretary of
State Bev Clarno erroneously determined that Initiative Petition 57 complied with the procedural
requirements of the Oregon Constitution. Complaint, Uherbelu v. Clarno, No. 20CV13939 (Or.
Cir. Ct. Mar 27, 2020). This matter is currently pending.
7
COMPLAINT (People Not Politicians, et al. v. Secretary of State)
1386660

Case 6:20-cv-01053-MC

22.

Document 1

Filed 06/30/20

Page 8 of 18

Pursuant to the Oregon Constitution, the number of signatures to be collected on a

petition to place a constitutional amendment initiative on the ballot is eight percent of the total
number of votes cast for candidates for Governor in the most recent election in the state. Or.
Const. art IV, § 1, cl. 2(c). For the 2020 election cycle, this requires a petition to garner 149,360
signatures from qualified voters to get on the ballot. The Secretary of State is responsible for
receiving the petitions and verifying the signatures of voters on the petition. Or. Rev. Stat. §
250.105.
23.

The Oregon Constitution also mandates that a petition must be filed at least four

months in advance of the election the initiative is meant to be voted on, which is July 2, 2020 for
this election cycle. Or. Const. art IV, § 1, 2(e). If a petition fails to garner the adequate number of
signatures to be placed on the ballot in the current election cycle, proponents of the initiative are
required start the signature process again from the beginning for the next election cycle. Unger v.
Rosenblum, 362 Or. 210, 223 (2017).
B.

The Pandemic

24.

The Pandemic has resulted in a near total cessation of public activity in Oregon.

This necessary public health action is the result of the adoption of guidance by the federal
government, adherence to legal directives issued by the Governor of the State of Oregon, as well
as general public attitudes in response to an unprecedented global pandemic.
1.
25.

Effects of the Pandemic on National Policy

On January 30, 2020, the World Health Organization declared that the novel

coronavirus (COVID-19) constitutes a Public Health Emergency of International Concern. Over
the next two months, President Donald Trump, Congress, and the Centers for Disease Control
8
COMPLAINT (People Not Politicians, et al. v. Secretary of State)
1386660

Case 6:20-cv-01053-MC

Document 1

Filed 06/30/20

Page 9 of 18

implemented various emergency declarations and public health guidance, including suggested
restrictions for communities on the size of social gatherings, social distancing guidelines
intended to reduce interpersonal contact, suggested guidelines on how to protect oneself from
contracting Covid-19 and how to protect others if one became infected, and clear guidance to
listen and follow the instructions of state and local officials.
2.
26.

Effects of the Pandemic on Oregon State Policy

Nearly simultaneously with the federal government, Oregon Governor Kate

Brown issued an escalating series of Executive Orders aimed at protecting public health through
the curtailing of public activities and in-person gatherings of unrelated individuals. These
Executive Orders, while necessary for public health purposes, severely limited public gatherings
that play a central role in signature gathering efforts.
27.

On March 7, 2020, Oregon Governor Kate Brown issued Executive Order No. 20-

03, declaring a State of Emergency pursuant to ORS 401.165 et seq finding that the novel
infectious coronavirus has created a threat to public health and safety, and constitutes a statewide
emergency under ORS 401.021(1). The Executive Order established that the state of emergency
shall exist for sixty days unless extended or terminated by the Governor.
28.

On March 12, 2020, Governor Brown issued Executive Order No. 20-05

Prohibiting Large Gatherings Due to Coronavirus (Covid-19) Outbreak in Oregon. The
Executive Order banned gatherings larger than 250 people and ordered the statewide closure of
K-12 schools. The Executive Order applied to community, civic, public, leisure, faith-based, and
sporting events, concerts, conventions, fundraisers, and any similar events or activities if a
minimum of three feet of space cannot be maintained between participants.
9
COMPLAINT (People Not Politicians, et al. v. Secretary of State)
1386660

Case 6:20-cv-01053-MC

29.

Document 1

Filed 06/30/20

Page 10 of 18

On March 17, 2020, Governor Brown issued Executive Order No. 20-07

Prohibiting On-Premises Consumption of Food or Drink and Gatherings of More Than 25
People. This Executive Order further restricted public movement, required additional social
distancing measures, and bans all public gatherings of 25 or more people.
30.

On March 23, 2020, Governor Brown issued Executive Order No. 20-12 Stay

Home, Save Lives: Ordering Oregonians to Stay at Home, Closing Specified Retail Businesses,
Requiring Social Distancing Measures for Other Public and Private Facilities, and Imposing
Requirements for Outdoor Areas and Licensed Childcare Facilities. This Executive Order
established mandatory social distancing requirements of at least six feet from any person who
does not live in same household, with violations subject to penalties described in ORS 401.990.
The order includes no end date, stating that it will remain in effect “until terminated by the
governor.”
31.

On May 1, 2020, Governor Brown signed Executive Order No. 20-24, extending

the state of emergency in response to Covid-19 for an additional 60 days through July 6, 2020.
32.

On May 14, 2020, Governor Brown issued Executive Order No. 20-25: A Safe

and Strong Oregon: Maintaining Essential Health Directives in Response to COVID-19, and
Implementing a Phased Approach for Reopening Oregon's Economy. This order established
criteria counties would have to meet before being allowed to move to a phased reopening of
businesses and other facilities along with permitting gatherings of gradually increasing number
of individuals in those counties.

10
COMPLAINT (People Not Politicians, et al. v. Secretary of State)
1386660

Case 6:20-cv-01053-MC

33.

Document 1

Filed 06/30/20

Page 11 of 18

On May 18, 2020, Baker County Circuit Court judge Matthew Shirtcliff

suspended Governor Brown’s Executive Order. The Oregon Supreme Court issued a stay on the
same day blocking Judge Shirtcliff’s order pending its own resolution of the case.
34.

On June 12, 2020, the Oregon Supreme Court reversed Judge Shirtcliff and

upheld Gov Brown’s Stay-Home executive order. Elkhorn Baptist Church v. Brown, 366 Or. 506
(2020).
35.

By June 19, 2020, Oregon’s three most populous counties–Multnomah,

Washington, and Clackamas–were granted Phase I reopening status. Aside from Lincoln County,
which is also a Phase I county, all other Oregon counties have been granted Phase II status.
Phases I and II of Oregon’s gradual reopening, and thus restrictions that currently apply to the
entire state, mandate physical distancing of at least six feet and significant restrictions on large
gatherings.
3.
36.

Signature-gathering during the pandemic.

Following the rise of the COVID-19 Pandemic, state and local public health

restrictions have largely barred the conduct and strategies on which pre-Pandemic signature
collection typically relied. Under normal circumstances, signatures are gathered through a
variety of methods, all of which rely on extensive in-person contact. Signature gatherers go out
into public spaces, such as markets, public transportation nexuses, and other highly-trafficked
areas. Signature gatherers approach strangers with a clipboard, petitions forms, pens, and
campaign paraphernalia. The signature collection process typically requires signature gatherers
to speak one-to-one with potential voters in close physical proximity. If a registered voter agrees
to sign the petition form, the volunteer hands them the clipboard, the petition form, and a pen.
11
COMPLAINT (People Not Politicians, et al. v. Secretary of State)
1386660

Case 6:20-cv-01053-MC

Document 1

Filed 06/30/20

Page 12 of 18

The volunteer may also give the voter campaign literature and paraphernalia. Naturally, this
interaction involves passing items back and forth between the volunteer and voter. Volunteers
repeat this type of interaction—in spaces far closer than six feet apart—with at least tens of
voters in a typical canvassing “shift.” This is exactly the type of activity Pandemic public health
restrictions have prohibited.
37.

The disruption of normal signature-collecting methods extends beyond social-

distancing restrictions. Through shelter-in-place orders, Oregonians have been ordered under
penalty of law to stay at home. Restaurants, government buildings, schools, and other
establishments where Plaintiffs would traditionally have been able to gather signatures have been
closed or access has been sharply limited. People also are prohibited from gathering in parks and
other areas in substantial numbers. Even if traditional signature gathering methods were
currently legally permissible, they would run counter to public health concerns and potentially
pose risks to PNP’s signature gatherers and potential voters.
38.

Although Oregon does permit campaigns to mail petitions to voters for signature

and permits voters to download, print, and sign petitions and then mail them back, these are
typically used as supplemental signature gathering methods and do not produce the same number
of signatures as quickly or efficiently as in person signature gathering. See Meyer v. Grant, 486
U.S. 414, 422 (1988) (striking down a prohibition against the use of paid petition circulators and
calling direct one-on-one communication “the most effective, fundamental, and perhaps
economical avenue of political discourse”).
39.

Accordingly, given the Pandemic’s widespread disruption of the activity on which

traditional signature gathering depends during the entirety of the period during which PNP was
12
COMPLAINT (People Not Politicians, et al. v. Secretary of State)
1386660

Case 6:20-cv-01053-MC

Document 1

Filed 06/30/20

Page 13 of 18

authorized to collect signatures, it is implausible that PNP will be able to gather the required
number of signatures or meet the signature submission deadline.
4.
40.

Oregon and other states have taken action to protect political speech
in light of COVID-19

Oregon and other states, recognizing the Pandemic’s extraordinarily disruptive

effect on normal life, have taken affirmative steps to adjust their regulations and procedures to
help protect and ensure continued political participation.
41.

Typically, Oregonians can participate in public meetings in a variety of ways,

including by attending meetings in person and providing in person testimony. Due to the
pandemic, on April 15, 2020, Governor Brown issued an Executive Order requiring that public
meetings in the state make available a method for the public to attend the meeting at the same
time that it occurs, whether by telephone, video, or other electronic means. Or. Exec. Order No.
20-16 (Apr. 15, 2020).
42.

Other jurisdictions in the United States have also taken steps to protect political

speech during the Pandemic, including changing the rules for elections and initiatives. For
example, sixteen states have either postponed their primary elections in response to the pandemic
or moved their election to vote-by-mail, including Alaska, Connecticut, Delaware, Georgia,
Hawaii, Indiana, Kentucky, Louisiana, Maryland, New Jersey, New York, Ohio, Pennsylvania,
Rhode Island, West Virginia and Wyoming. Nick Corasantini & Stephanie Saul, 16 States Have
Postponed Primaries During the Pandemic. Here’s a List., N.Y. Times (May 27, 2020),
https://www.nytimes.com/article/2020-campaign-primary-calendar-coronavirus.html.

13
COMPLAINT (People Not Politicians, et al. v. Secretary of State)
1386660

Case 6:20-cv-01053-MC

43.

Document 1

Filed 06/30/20

Page 14 of 18

Additionally, several courts have granted relief in light of the impact of COVID-

19 on signature gathering across the United States. A Virginia state court granted a preliminary
injunction and ordered a reduction in the number of signatures needed for candidates to enter
Virginia’s primary election from 10,000 to 3,000. The court found that “the circumstances as
they exist in the Commonwealth of Virginia and across the United States are not normal right
now,” and that the regulations requiring the signatures were not narrowly tailored because they
“do[ ] not provide for emergency circumstances, like those that currently exist.” Faulkner v. Va.
Dep’t of Elections, No. CL 20-1456, slip op. at 3 (Va. Cir. Ct. Mar. 25, 2020).
44.

For candidates seeking access to the ballot in Massachusetts, the Massachusetts

Supreme Judicial Court ordered a reduction in signature requirements by 50%, an extension of
the deadline for filing signatures, and allowing electronic over wet-ink signatures. The court
found that “these extraordinary times of a declared state of emergency arising from the COVID19 pandemic create an undue burden on prospective candidate’s constitutional right to seek
elective office.” Goldstein v. Sec’y of Commonwealth, 142 N.E.3d 560, 564 (Mass. 2020).
45.

A federal court in Arkansas granted a motion for preliminary injunction made by

the plaintiffs to allow collecting signatures outside of previous in-person requirements. Miller v.
Thurston, No. 5:20-CV-05070 (W.D. Ark. May 26, 2020).
46.

In Nevada, a federal court granted a preliminary injunction that extended the

deadline for submitting a complete petition in light of the pandemic. The court agreed with the
plaintiffs, finding that “as plaintiffs have no chance of getting their initiative on the ballot
without an extension, their First Amendment rights have been violated.” Fair Maps Nevada v.
Cegavske, No. 3:20-cv-00271, slip op. at 27 (D. Nev. May 29, 2020).
14
COMPLAINT (People Not Politicians, et al. v. Secretary of State)
1386660

Case 6:20-cv-01053-MC

47.

Document 1

Filed 06/30/20

Page 15 of 18

A federal court in Michigan granted a motion for preliminary injunction that

lowered the signature requirement to place an initiative on the ballot and delayed the deadline to
file initiative petitions. The court determined that “the reality on the ground for Plaintiff and
other candidates is that state action has pulled the rug out from under their ability to collect
signatures.” SawariMedia LLC v. Whitmer, No. 20-CV-11246, slip op. at 6 (E.D. Mich. June 11,
2020).
48.

A Michigan state court suspended a ban on using signatures that are more than

180 days old. Fair and Equal Michigan v. Benson, No. 20-000095-MM (Mich. Ct. Cl. Jun. 10,
2020).
49.

The 7th Circuit granted an extension of the petition submission deadline for third

party candidates and lowered the number of required signatures. Libertarian Party of Illinois v.
Cadigan, No. 20-1961 (7th Cir. June 21, 2020).
50.

PNP approached the Oregon Secretary of State to request accommodations similar

to those described above given the challenges faced by PNP, through no fault of its own, during
the authorized signature collection period. Specifically, PNP requested that Oregon’s signature
submission deadline during this unique time be extended until August 17 and the 2018 threshold
for referenda (58,789) be adopted as the most appropriate basis of demonstrating sufficient
support in light of the pandemic-related orders prohibiting in-person signature gathering.
51.

The Secretary of State refused PNP’s request and made no adjustment to its pre-

Pandemic requirements to account for the current exceptional circumstances and burdens on
signature-gathering activities.

15
COMPLAINT (People Not Politicians, et al. v. Secretary of State)
1386660

Case 6:20-cv-01053-MC

Document 1

Filed 06/30/20

Page 16 of 18

CAUSE OF ACTION
COUNT I – Undue Burden on Ballot Access and Rights to Freedom of Speech and
Association Under the First and Fourteenth Amendments to the U.S. Constitution
52.

Plaintiffs reallege and incorporate by reference all prior paragraphs as though

fully set forth herein.
53.

The First Amendment and Fourteenth Amendment to the United States

Constitution secure the rights of Oregonians to speech and political expression free from
government interference or hinderance. Circulation of petitions is core protected speech. Prete v.
Bradbury, 438 F.3d 949, 961 (9th Cir. 2006); see also Meyer v. Grant, 486 U.S. 414, 420 (1988).
54.

Regulations and restrictions on the right to vote and engage in political expression

is assessed under the sliding-scale standards established by Anderson v. Celebrezze, 460 U.S.
780 (1984) and Burdick v. Takushi, 504 U.S. 428 (1992). If a severe burden on these rights are
established, then strict scrutiny applies. See, e.g., Harper v. Virginia Board of Elections, 383
U.S. 663 (1966).
55.

The challenged restrictions, Oregon’s pre-Pandemic signature count requirement

and submission deadline as applied to PNP during the Pandemic and related public health orders,
impose a severe burden on the Plaintiffs’ First and Fourteen Amendment rights by making it
nearly impossible to place the initiative on the ballot. This severe burden earns strict scrutiny for
the challenged regulations under the Anderson/Burdick standard. Angle v. Miller, 673 F.3d 1122,
1133 (9th Cir. 2012).
56.

Defendant’s maintenance of both the pre-Pandemic number of signatures required

as well as the deadline for submitting signatures cannot survive strict scrutiny in light of the
16
COMPLAINT (People Not Politicians, et al. v. Secretary of State)
1386660

Case 6:20-cv-01053-MC

Document 1

Filed 06/30/20

Page 17 of 18

government regulations in response to the COVID-19 pandemic. The requirements as applied to
PNP are not narrowly tailored to further a compelling government interest.
57.

Moreover, Defendant has no compelling interest in effectively barring the

Initiative from appearing on the ballot. The Defendant’s interest in ensuring that the Initiative
has enough verified public support before appearing on the ballot can be accomplished through
less restrictive means.
58.

Requiring the Initiative to be submitted for verification with 149,360 signatures

by July 2, 2020 will likely unnecessarily preclude the Initiative from appearing on the ballot.
More time can—and should be—allotted to collect and verify signatures and the signature
threshold should be lowered to ensure Plaintiffs’ right to engage in political speech is sufficiently
protected. Doing so will not compromise the government’s interest in ensuring that only verified
initiatives are included on the ballot or that sufficient support for the initiative exists to place it
on the 2020 ballot. Even if more time is allotted to gather the required signatures, the Defendant
and her employees in the Secretary of State’s office will have sufficient time to verify the
Initiative. And even if fewer signatures are required to be submitted for verification, the
Defendant and her employees will still be able to confirm the significant voter support for
placing the matter on the ballot.
59.

Absent relief from this Court, Plaintiffs will suffer irreparable harm. Plaintiffs

have no adequate remedy at law. If the court does not order relief, Plaintiffs will be prevented
from engaging in constitutionally protected speech in violation of the First and Fourteenth
Amendments. In addition, Plaintiffs will be unable to place before the voters an option to change

17
COMPLAINT (People Not Politicians, et al. v. Secretary of State)
1386660

Case 6:20-cv-01053-MC

Document 1

Filed 06/30/20

Page 18 of 18

how redistricting is conducted prior to the redistricting process that takes place only once each
decade.
PRAYER FOR RELIEF
WHEREFORE, Plaintiffs respectfully request that this Court:
1.

Declare that the application of Oregon Constitution Art. IV §§ 1(2)(e) and
1(4)(a), and all related laws, rules, or policies, as applied to the Initiative
violates the U.S. Constitution by unduly burdening the initiative process.

2.

Declare that the application of Oregon Constitution Art. IV § 1(2)(c), and all
related laws, rules, or policies, as applied to the Initiative violates the U.S.
Constitution by unduly burdening signature gathering efforts in support of the
Initiative.

3.

Enjoin enforcement of signature submission and verification deadlines, and all
related laws, rules, or policies, as applied to the Initiative.

4. Enjoin enforcement of signature totals requirement, and all related laws, rules,
or policies, as applied to the Initiative.

DATED: June 30, 2020

SHERMAN, SHERMAN, JOHNNIE &
HOYT, LLP

By: s/ Steve Elzinga
STEVE ELZINGA, OSB No. 123102
Attorneys for Plaintiffs
PEOPLE NOT POLITICIANS OREGON,
COMMON CAUSE, LEAGUE OF
WOMEN VOTERS OF OREGON, NAACP
OF EUGENE/SPRINGFIELD,
INDEPENDENT PARTY OF OREGON,
and C. NORMAN TURRILL
18
COMPLAINT (People Not Politicians, et al. v. Secretary of State)
1386660

No. 20A21

In the Supreme Court of the United States
BEVERLY CLARNO, Oregon Secretary of State,
Applicant,
v.
PEOPLE NOT POLITICIANS OREGON, COMMON CAUSE, LEAGUE OF WOMEN
VOTERS OF OREGON, NAACP OF EUGENE/SPRINGFIELD, INDEPENDENT
PARTY OF OREGON, and C. NORMAN TURRILL,
Respondents.
APPENDIX G TO OPPOSITION TO APPLICATION FOR STAY
Docket
People Not Politicians Oregon et al. v. Clarno, No. 6:20-cv-01053-MC (D. Or.)

STEPHEN ELZINGA
SHERMAN, SHERMAN,
JOHNNIE & HOYT, LLP
693 Chemeketa Street NE
Salem, OR 97301
KATHAY FENG
DAN VICUNA
COMMON CAUSE
453 S. Spring Street, Suite 401
Los Angeles, CA 90013

R. ADAM LAURIDSEN
JAY RAPAPORT
Counsel of Record
DAVID J. ROSEN
TARA M. RANGCHI
KEKER, VAN NEST &
PETERS LLP
633 Battery Street
San Francisco, CA 94111
(415) 391-5400
jrapaport@keker.com

Counsel for Respondents

8/3/2020

CM/ECF

Query

Reports

Utilities

Help

Log Out

APPEAL

U.S. District Court
District of Oregon (Eugene (6))
CIVIL DOCKET FOR CASE #: 6:20-cv-01053-MC
People Not Politicians Oregon et al v. Clarno
Assigned to: Judge Michael J. McShane
Case in other court: 9th Circuit, 20-35630
Cause: 42:1983 Civil Rights Act

Date Filed: 06/30/2020
Jury Demand: None
Nature of Suit: 441 Civil Rights: Voting
Jurisdiction: Federal Question

Plaintiff
People Not Politicians Oregon

represented by Stephen Elzinga
693 Chemeketa St NE
Salem, OR 97301
503-364-2281
Email: steve@shermlaw.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Plaintiff
Common Cause

represented by Stephen Elzinga
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Plaintiff
League of Women Voters of Oregon

represented by Stephen Elzinga
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Plaintiff
NAACP of Eugene/Springfield

represented by Stephen Elzinga
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Plaintiff
Independent Party of Oregon

represented by Stephen Elzinga
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Plaintiff
C. Norman Turrill

https://ecf.ord.uscourts.gov/cgi-bin/DktRpt.pl?605103022408172-L_1_0-1

represented by Stephen Elzinga
(See above for address)

1/6

8/3/2020

CM/ECF

LEAD ATTORNEY
ATTORNEY TO BE NOTICED
V.
Defendant
Beverly Clarno
Oregon Secretary of State

represented by Christina L. Beatty-Walters
Oregon Department of Justice
100 SW Market Street
Portland, OR 97201
(971) 673-1880
Fax: (971) 673-5000
Email: tina.beattywalters@doj.state.or.us
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Benjamin Gutman
Oregon Department of Justice
Appellate Division
1162 Court Street NE
Salem, OR 97301
503-378-4402
Fax: 503-378-6306
Email: benjamin.gutman@doj.state.or.us
ATTORNEY TO BE NOTICED
Brian Simmonds Marshall
Oregon Department of Justice
Trial Division, Special Litigation Unit
100 SW Market Street
Portland, OR 97201
971-673-1880
Email: brian.s.marshall@doj.state.or.us
ATTORNEY TO BE NOTICED

Amicus
Becca Uherbelau

represented by Steven C. Berman
Stoll Stoll Berne Lokting & Schlachter
209 S.W. Oak Street
5th Floor
Portland, OR 97204
503-227-1600
Fax: 503-227-6840
Email: sberman@stollberne.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Lydia Anderson-Dana
Stoll Stoll Berne Lokting & Shlachter P.C.
209 SW Oak Street
Suite 500
Portland, OR 97204
503-227-1600

https://ecf.ord.uscourts.gov/cgi-bin/DktRpt.pl?605103022408172-L_1_0-1

2/6

8/3/2020

CM/ECF

Fax: 503-227-6840
Email: landersondana@stollberne.com
ATTORNEY TO BE NOTICED
Amicus
Our Oregon

represented by Steven C. Berman
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Lydia Anderson-Dana
(See above for address)
ATTORNEY TO BE NOTICED

Date Filed

#

Docket Text

06/30/2020

1 Complaint. Filing fee in the amount of $400 collected. Agency Tracking ID: AORDC6919967 Jury Trial Requested: No. Filed by People Not Politicians Oregon, C. Norman
Turrill, Common Cause, NAACP of Eugene/Springfield, Independent Party of Oregon,
League of Women Voters of Oregon against Bev Clarno. (Elzinga, Stephen) (Entered:
06/30/2020)

06/30/2020

2 Motion for Preliminary Injunction . Expedited Hearing requested. Filed by All Plaintiffs.
(Elzinga, Stephen) Modified on 7/2/2020 per order 12 (cp). (Entered: 06/30/2020)

06/30/2020

3 Declaration of Ted Blaszak in Support of Plaintiff's Motion for a Temporary Restraining
Order. Filed by All Plaintiffs. (Related document(s): Motion for Temporary Restraining
Order 2 .) (Elzinga, Stephen) (Entered: 06/30/2020)

06/30/2020

4 Declaration of Candalynn Johnson in Support of Plaintiff's Motion for a Temporary
Restraining Order. Filed by All Plaintiffs. (Related document(s): Motion for Temporary
Restraining Order 2 .) (Elzinga, Stephen) (Entered: 06/30/2020)

06/30/2020

5 Declaration of C. Norman Turrill in Support of Plaintiff's Motion for a Temporary
Restraining Order. Filed by All Plaintiffs. (Related document(s): Motion for Temporary
Restraining Order 2 .) (Elzinga, Stephen) (Entered: 06/30/2020)

07/01/2020

6 Civil Cover Sheet regarding Complaint, 1 . Filed by All Plaintiffs. (Elzinga, Stephen)
(Entered: 07/01/2020)

07/01/2020

7 Notice of Case Assignment to Judge Michael J. McShane and Discovery and Pretrial
Scheduling Order. NOTICE: Counsel shall print and serve the summonses and all
documents issued by the Clerk at the time of filing upon all named parties in
accordance with Local Rule 3-5. Discovery is to be completed by 10/29/2020. Joint
Alternate Dispute Resolution Report is due by 11/30/2020. Pretrial Order is due by
11/30/2020. Ordered by Judge Michael J. McShane. (bd) (Entered: 07/01/2020)

07/01/2020

8 Waiver of Service of Summons Returned Executed by All Defendants. Filed by All
Plaintiffs. (Elzinga, Stephen) (Entered: 07/01/2020)

07/01/2020

9 Waiver of Service of Summons Returned Executed by All Defendants. Filed by All
Plaintiffs. (Elzinga, Stephen) (Entered: 07/01/2020)

07/01/2020

10 Notice of Appearance of Christina L. Beatty-Walters appearing on behalf of Beverly
Clarno Filed by on behalf of Beverly Clarno. (Beatty-Walters, Christina) (Entered:
07/01/2020)

https://ecf.ord.uscourts.gov/cgi-bin/DktRpt.pl?605103022408172-L_1_0-1

3/6

8/3/2020

CM/ECF

07/01/2020

11 Notice of Appearance of Brian Simmonds Marshall appearing on behalf of Beverly Clarno
Filed by on behalf of Beverly Clarno. (Marshall, Brian) (Entered: 07/01/2020)

07/02/2020

12 Scheduling Order by Judge Michael J. McShane regarding Motion for Preliminary
Injunction 2 . Based upon the communications from the parties, the Court will treat the
pending motion 2 as a Motion for Preliminary Injunction. The Court also adopts the parties
proposed briefing schedule. Defendant's Response is due by 01:00PM on 7/8/2020. The
Court will hold Oral Argument on 7/9/2020 at 03:00PM in Eugene by telephone before
Judge Michael J. McShane. The Court will provide the parties with the conference call-in
number by separate email. Ordered by Judge Michael J. McShane. (cp) (Entered:
07/02/2020)

07/07/2020

13 Scheduling Order by Judge Michael J. McShane: Based upon the request of the parties, the
Oral Argument set for 7/9/2020 regarding Motion for Preliminary Injunction 2 is reset for
7/10/2020 at 02:00PM in Eugene by telephone before Judge Michael J. McShane. SurResponse is due by 7/9/2020. The parties are to use the previously emailed conference
call-in number. Ordered by Judge Michael J. McShane. (cp) (Entered: 07/07/2020)

07/09/2020

14 Scheduling Order by Judge Michael J. McShane: The Oral Argument regarding Motion for
Preliminary Injunction 2 set for 7/10/2020 at 02:00PM will be by videoconference before
Judge Michael J. McShane. The Court will provide the parties the videoconference
information by separate email. Ordered by Judge Michael J. McShane. (cp) (Entered:
07/09/2020)

07/09/2020

15 Response to Motion for Preliminary Injunction 2 . Filed by Beverly Clarno. (BeattyWalters, Christina) (Entered: 07/09/2020)

07/09/2020

16 Declaration of Summer S. Davis in Opposition to Motion for Preliminary Injunction. Filed
by Beverly Clarno. (Related document(s): Motion for Preliminary Injunction 2 .)
(Attachments: # 1 Exhibit A, # 2 Exhibit B, # 3 Exhibit C, # 4 Exhibit D, # 5 Exhibit E, #
6 Exhibit F, # 7 Exhibit G, # 8 Exhibit H) (Beatty-Walters, Christina) (Entered:
07/09/2020)

07/09/2020

17 Motion to Intervene or in the Alternative Appear as Amici Curiae. Oral Argument
requested. Filed by Becca Uherbelau, Our Oregon. (Attachments: # 1 Exhibit A - Becca
Uherbelau and Our Oregons Opposition to Plaintiffs Motion for a Temporary Restraining
Order or Preliminary Injunction, # 2 Exhibit B - Declaration of Becca Uherbelau, # 3
Exhibit C - Declaration of Ben Unger, # 4 Exhibit D - Declaration of Elizabeth Kaufman)
(Anderson-Dana, Lydia) (Entered: 07/09/2020)

07/09/2020

18 Corrected Response (with Table of Authorities Added) to Motion for Preliminary
Injunction 2 . Filed by Beverly Clarno. (Beatty-Walters, Christina) (Entered: 07/09/2020)

07/09/2020

19 Motion for Leave to File Reply in Support of Plaintiff's Motion for Preliminary Injunction.
Filed by All Plaintiffs. (Attachments: # 1 Plaintiff's Reply in Support of Its Motion for
Preliminary Injunction) (Elzinga, Stephen) (Entered: 07/09/2020)

07/09/2020

20 Supplemental Declaration of Ted Blaszak in Support of Plaintiff's Motion for Preliminary
Injunction. Filed by All Plaintiffs. (Related document(s): Motion for Leave 19 .) (Elzinga,
Stephen) (Entered: 07/09/2020)

07/10/2020

21 Corrected Motion for Leave File Reply in Support of Plaintiff's Motion for Preliminary
Injunction. Filed by All Plaintiffs. (Attachments: # 1 Plaintiff's Reply in Support of Its
Motion for Preliminary Injunction) (Elzinga, Stephen) (Entered: 07/10/2020)

07/10/2020

22 MINUTES of Proceedings: Video Motion Hearing Held. Witnesses sworn and evidence
adduced. Witnesses: Edward Blaszak; Normal Turrill; Candalynn Johnson; Elizabeth
Kaufman; Summer Davis. Order Granting Motion for a Preliminary Injunction 2 as stated

https://ecf.ord.uscourts.gov/cgi-bin/DktRpt.pl?605103022408172-L_1_0-1

4/6

8/3/2020

CM/ECF

on the record. Formal order in writing to follow. Order Granting in Part and Denying in
Part Motion to Intervene or in the Alternative Appear as Amici Curiae 17 to the extent that
movants are allowed to appear as amici curiae. Order Denying defendant's oral Motion for
Stay. Stephen Elzinga present as counsel for plaintiffs. Christina Beatty-Walters; Brian
Marshall present as counsel for defendant. Steven Berman; Lydia Anderson-Dana present
as counsel for amici curiae. (Court Reporter Deborah Cook.) Judge Michael J. McShane
presiding. (plb) (Entered: 07/10/2020)
07/13/2020

23 Opinion and Order: The Secretary of State has a vital interest in regulating the petition
processes. Purcell v. Gonzalez, 549 U.S. 1, 4 (2006). It is also important that the federal
courts not take it upon themselves to rewrite state election rules, particularly on the eve of
an election. Republican Natl Comm., 140 S. Ct at 1207. But when these rules collide with
unprecedented conditions that burden First Amendment access to the ballot box, their
application must temper in favor of the Constitution. Because the right to petition the
government is at the core of First Amendment protections, which includes the right of
initiative, City of Cuyahoga Falls, 538 U.S. at 196, the current signature requirements in
Oregon law are unconstitutional as applied to these specific Plaintiffs seeking to engage in
direct democracy under these most unusual of times. The Court therefore GRANTS
Plaintiffs' motion for emergency injunctive relief 2 . Signed on 7/13/2020 by Judge
Michael J. McShane. (cp) (Entered: 07/13/2020)

07/13/2020

24 Notice re Opinion and Order,,,, 23 in Response to Court Order Filed by Beverly Clarno.
(Related document(s): Opinion and Order,,,, 23 .) (Beatty-Walters, Christina) (Entered:
07/13/2020)

07/14/2020

25 Order: Based on the Defendant's Notice 24 regarding the Court's Opinion and Order 23 ,
the Court issues this Minute Order clarifying how it came to the reduced signature number.
The Court adopts Plaintiffs' requested remedy of 58,789 signatures. 58,789 required
signatures is equal to 50% of the number of signatures required for a constitutional
initiative to qualify the 2018 General Election, rather than the 2020 General Election
because of the large jump in voter turnout. See Pl.'s Mot. for a Prelim. Inj. 33-34 2 .
Ordered by Judge Michael J. McShane. (cp) (Entered: 07/14/2020)

07/15/2020

26 Notice of Appeal to the 9th Circuit Filing fee $505 collected; Agency Tracking ID:
AORDC-6987259. Filed by Beverly Clarno. (Gutman, Benjamin) (Entered: 07/15/2020)

07/15/2020

27 Transcript Designation and Order Form for the hearing held on July 10, 2020 before Judge
Michael J. McShane. Court Reporter: Deborah Cook. regarding Notice of Appeal Preliminary Injunction 26 Expedited. Filed by Beverly Clarno. Transcript is due by
8/14/2020. (Gutman, Benjamin) (Entered: 07/15/2020)

07/15/2020

USCA Case Number and Notice confirming Docketing Record on Appeal re Notice of
Appeal - Preliminary Injunction 26 . Case Appealed to 9th Circuit Case Number 2035630 assigned. (bd) (Entered: 07/15/2020)

07/22/2020

28 Order from USCA for the 9th Circuit, USCA # 20-35630 re Notice of Appeal Preliminary Injunction 26 . We expedite this appeal. No streamlined extensions of time
will be approved. No written motions for extensions of time will be granted absent
extraordinary and compelling circumstances. The Clerk shall place this case on the
calendar for August 2020. (bd) (Entered: 07/23/2020)

07/23/2020

29 Order from USCA for the 9th Circuit, USCA # 20-35630 re Notice of Appeal Preliminary Injunction 26 . Appellant's motion to stay the district court's July 13, 2020
order pending appeal is denied. (bd) (Entered: 07/23/2020)

07/30/2020

30 Joint Status Report . Filed by Beverly Clarno. (Beatty-Walters, Christina) (Entered:
07/30/2020)

https://ecf.ord.uscourts.gov/cgi-bin/DktRpt.pl?605103022408172-L_1_0-1

5/6

8/3/2020

CM/ECF

PACER Service Center
Transaction Receipt
08/03/2020 09:35:19
PACER
Login:

jrapaport2355

Client
Code:

Description:

Docket
Report

Search 6:20-cv-01053-MC Start date:
Criteria: 1/1/1971 End date: 8/3/2020

Billable
Pages:

5

Cost:

https://ecf.ord.uscourts.gov/cgi-bin/DktRpt.pl?605103022408172-L_1_0-1

MISC

0.50

6/6

No. 20A21

In the Supreme Court of the United States
BEVERLY CLARNO, Oregon Secretary of State,
Applicant,
v.
PEOPLE NOT POLITICIANS OREGON, COMMON CAUSE, LEAGUE OF WOMEN
VOTERS OF OREGON, NAACP OF EUGENE/SPRINGFIELD, INDEPENDENT
PARTY OF OREGON, and C. NORMAN TURRILL,
Respondents.
APPENDIX H TO OPPOSITION TO APPLICATION FOR STAY
Joint Status Report
People Not Politicians Oregon et al. v. Clarno, No. 6:20-cv-01053-MC (D. Or.)

STEPHEN ELZINGA
SHERMAN, SHERMAN,
JOHNNIE & HOYT, LLP
693 Chemeketa Street NE
Salem, OR 97301
KATHAY FENG
DAN VICUNA
COMMON CAUSE
453 S. Spring Street, Suite 401
Los Angeles, CA 90013

R. ADAM LAURIDSEN
JAY RAPAPORT
Counsel of Record
DAVID J. ROSEN
TARA M. RANGCHI
KEKER, VAN NEST &
PETERS LLP
633 Battery Street
San Francisco, CA 94111
(415) 391-5400
jrapaport@keker.com

Counsel for Respondents

Case 6:20-cv-01053-MC

Document 30

ELLEN F. ROSENBLUM
Attorney General
CHRISTINA L. BEATTY-WALTERS
#981634
BRIAN SIMMONDS MARSHALL
#196129
Senior Assistant Attorneys General
Department of Justice
100 SW Market Street
Portland, OR 97201
Telephone: (971) 673-1880
Fax: (971) 673-5000
Email: Tina.BeattyWalters@doj.state.or.us
Brian.S.Marshall@doj.state.or.us
Attorneys for Defendant Secretary Beverly
Clarno

Filed 07/30/20

Page 1 of 2

STEVE ELZINGA
Oregon Bar No. 123102
SHERMAN, SHERMAN, JOHNNIE &
HOYT, LLP
693 Chemeketa St. NE
Salem, OR 97301
Telephone: 503-364-2281
steve@shermlaw.com
Attorneys for Plaintiffs
PEOPLE NOT POLITICIANS OREGON,
COMMON CAUSE, LEAGUE OF WOMEN
VOTERS OF OREGON, NAACP OF
EUGENE/SPRINGFIELD, INDEPENDENT
PARTY OF OREGON, and C. NORMAN
TURRILL

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON

PEOPLE NOT POLITICIANS OREGON,
COMMON CAUSE, LEAGUE OF WOMEN
VOTERS OF OREGON, NAACP OF
EUGENE/SPRINGFIELD, INDEPENDENT
PARTY OF OREGON, and C. NORMAN
TURRILL,

Case No. 6:20-cv-01053-MC
JOINT STATUS REPORT

Plaintiffs,
v.
BEVERLY CLARNO, OREGON
SECRETARY OF STATE,
Defendant.

The parties have conferred and are engaged in implementing the Court’s preliminary
injunction order. The parties file this joint status report to inform the Court that:
Page 1 -

JOINT STATUS REPORT
TBW/jl9/10361710
Department of Justice
100 SW Market Street
Portland, OR 97201
(971) 673-1880 / Fax: (971) 673-5000

Case 6:20-cv-01053-MC

Document 30

Filed 07/30/20

Page 2 of 2

(1) The actions under Oregon law relating to the potential qualification of IP 57 for the ballot
that were required before or shortly after the Court entered its preliminary injunction
order have now been taken; and
(2) The Office of the Secretary of State has today completed the signature verification
process for Initiative Petition 57 and has verified more than the court-imposed threshold
of 58,789 signatures.

DATED July

30 , 2020.
Respectfully submitted,
ELLEN F. ROSENBLUM
Attorney General

s/ Christina L. Beatty-Walters
CHRISTINA L. BEATTY-WALTERS #981634
BRIAN SIMMONDS MARSHALL #196129
Senior Assistant Attorneys General
Trial Attorneys
Tel (971) 673-1880
Fax (971) 673-5000
Tina.BeattyWalters@doj.state.or.us
Brian.S.Marshall@doj.state.or.us
Attorneys for Defendant Secretary Beverly
Clarno
s/ Steve Elzinga
STEVE ELZINGA
Attorneys for Plaintiffs
PEOPLE NOT POLITICIANS OREGON,
COMMON CAUSE, LEAGUE OF WOMEN
VOTERS OF OREGON, NAACP OF
EUGENE/SPRINGFIELD, INDEPENDENT
PARTY OF OREGON, and C. NORMAN

Page 2 -

JOINT STATUS REPORT
TBW/jl9/10361710
Department of Justice
100 SW Market Street
Portland, OR 97201
(971) 673-1880 / Fax: (971) 673-5000

No. 20A21

In the Supreme Court of the United States
BEVERLY CLARNO, Oregon Secretary of State,
Applicant,
v.
PEOPLE NOT POLITICIANS OREGON, COMMON CAUSE, LEAGUE OF WOMEN
VOTERS OF OREGON, NAACP OF EUGENE/SPRINGFIELD, INDEPENDENT
PARTY OF OREGON, and C. NORMAN TURRILL,
Respondents.
APPENDIX I TO OPPOSITION TO APPLICATION FOR STAY
Emergency Motion Under Circuit Rule 27-3 for a Stay Pending Appeal
People Not Politicians Oregon et al. v. Clarno, No. 20-35630 (9th Cir.)

STEPHEN ELZINGA
SHERMAN, SHERMAN,
JOHNNIE & HOYT, LLP
693 Chemeketa Street NE
Salem, OR 97301
KATHAY FENG
DAN VICUNA
COMMON CAUSE
453 S. Spring Street, Suite 401
Los Angeles, CA 90013

R. ADAM LAURIDSEN
JAY RAPAPORT
Counsel of Record
DAVID J. ROSEN
TARA M. RANGCHI
KEKER, VAN NEST &
PETERS LLP
633 Battery Street
San Francisco, CA 94111
(415) 391-5400
jrapaport@keker.com

Counsel for Respondents

No. 20-35630
_____________________________________________________________
_____________________________________________________________
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
___________________
PEOPLE NOT POLITICIANS OREGON, et al,
Plaintiffs-Appellees,
v.
BEVERLY CLARNO, Oregon Secretary of State,
Defendant-Appellant.
___________________
EMERGENCY MOTION UNDER CIRCUIT RULE 27-3 FOR A STAY
PENDING APPEAL—RULING REQUESTED BY JULY 22, 2020
__________________
Appeal from the United States District Court
for the District of Oregon
___________________
ELLEN F. ROSENBLUM
Attorney General
BENJAMIN GUTMAN
Solicitor General
1162 Court St. NE
Salem, Oregon 97301-4096
Telephone: (503) 378-4402
benjamin.gutman@doj.state.or.us
Attorneys for Appellant
_______________________________________________________________
_______________________________________________________________

CIRCUIT RULE 27-3 CERTIFICATE
(i)

The names, telephone numbers, e-mail addresses, and office addresses
of the attorneys for all parties are as follows:
Benjamin Gutman
Solicitor General
Oregon Department of Justice
1162 Court St. NE
Salem, OR 97301
(503) 378-4402
benjamin.gutman@doj.state.or.us
Counsel for Defendant-Appellant
Steve Elzinga
Sherman, Sherman, Johnnie & Hoyt, LLP
693 Chemeketa St. NE
Salem, OR 97301
(503) 364-2281
steve@shermlaw.com
Counsel for Plaintiffs-Appellees

(ii)

The facts showing the existence of the emergency are as follows: The
district court ordered Oregon to place on the November 2020 ballot a
proposed constitutional amendment that does not meet the state
constitution’s signature and deadline requirements as long as the
plaintiffs produce 39% of the required signatures by August 17, 2020,
six weeks after the deadline. That order requires the state to violate
the provisions of the Oregon Constitution regarding constitutional
amendments. And it will require the state and others to take
immediate steps to comply, including by verifying signatures and

preparing the material that will appear in the voter’s pamphlet. Once
the ballot design is finalized and ballots are printed and mailed, it will
be too late to remove the measure from the ballot even if the
preliminary injunction is overturned. The Secretary of State must
finalize what is on the ballot by September 3rd at the latest to allow
ballots to be mailed no later than September 19th. If this court denies
a stay but expedites the appeal so that it can be decided by the end of
August, a scheduling order needs to be issued promptly. To prevent
the irreparable harm that will occur immediately and to ensure that
there is time to expedite the appeal if needed, the state requests a
ruling by July 22, 2020.
(iii)

The motion could not have been filed earlier because the district court
issued its written order entering its preliminary injunction on July 13,
2020. The state could not appeal and seek a stay before that date, and
this motion is submitted just two days later.

(iv)

Undersigned counsel spoke to counsel for plaintiffs, Steve Elzinga, on
July 13, 2020, to inform him about this motion, and exchanged emails
about the motion on July 14th and July 15th. Mr. Elzinga informed
me that plaintiffs oppose the motion. Mr. Elzinga will be served
through ECF and I am also emailing him a copy of the motion.

(v)

The relief sought here was first sought in the district court. Trial
counsel for the state informs me that the district court stated orally on
Friday, July 10, 2020, that it would deny a stay and that counsel did
not need to file a motion because it was deemed denied.
/s/ Benjamin Gutman
Benjamin Gutman

TABLE OF CONTENTS
INTRODUCTION ................................................................................................8
BACKGROUND ................................................................................................11
A.

To place a proposed constitutional amendment on the
November 2020 ballot, the Oregon Constitution requires
proponents to collect 149,360 signatures by July 2, 2020. ............11

B.

Plaintiffs collected less than half of the required signatures
for Initiative Petition 57 before the July 2nd deadline...................12

C.

The district court issued a preliminary injunction requiring
the Secretary of State to place IP 57 on the ballot as long as
plaintiffs present 58,789 signatures by August 17th......................12

ARGUMENT......................................................................................................13
A.

The Secretary is likely to prevail on appeal, because the
Oregon Constitution’s signature and deadline requirements
for initiative petitions do not violate the First Amendment as
applied to plaintiffs. .......................................................................13
1.

Signature and deadlines requirements for initiatives
do not implicate the First Amendment, because they
are legislative rules rather than regulations of speech........ 14

2.

Angle v. Miller does not support the district court’s
ruling. .................................................................................. 18

B.

The remaining factors also favor a stay. ........................................24

C.

If the Court does not grant a stay, it should expedite the
appeal so that it can be decided before the end of August.............28

CONCLUSION...................................................................................................30
ATTACHMENT
Opinion and Order.................................................................... A.T.T.-1-14
Summer S. Davis Declaration ................................................. A.T.T.-1-79

i

TABLE OF AUTHORITIES
Cases Cited
Angle v. Miller,
373 F.3d 1122 (9th Cir. 2012)................................... 18, 19, 20, 21, 22, 23
Dobrovolny v. Moore,
126 F.3d 1111 (8th Cir. 1997)..................................................................16
Initiative & Referendum Inst. v. Walker,
450 F.3d 1082 (10th Cir. 2006)................................................................16
Lair v. Bullock,
697 F.3d 1200 (9th Cir. 2012)........................................................... 14, 28
Marijuana Policy Project v. United States,
304 F.3d 82 (D.C. Cir. 2002) ...................................................................16
Maryland v. King,
567 U.S. 1301 (2012) ...............................................................................24
Meyer v. Grant,
486 U.S. 414 (1988) ........................................................ 17, 19, 21, 22, 23
Molinari v. Bloomberg,
564 F.3d 587 (2d Cir. 2009) .....................................................................16
Morgan v. White, ___ F.3d ___;
2020 WL 3818059 (No. 20-1801) (7th Cir. July 8, 2020) .......................17
Nken v. Holder,
556 U.S. 418 (2009) .................................................................................13
Purcell v. Gonzalez,
549 U.S. 1 (2006) .....................................................................................28
Reclaim Idaho v. Little,
2020 WL 3490216 (D. Idaho June 26, 2020).......................... 9, 10, 21, 29
Short v. Brown,
893 F.3d 671 (9th Cir. 2018)....................................................................28
Stanley v. Univ. of S. Cal.,
13 F.3d 1313 (9th Cir. 1994)....................................................................14
State v. Vallin,
434 P.3d 413 (Or. 2019) ...........................................................................15
ii

Winter v. Nat. Res. Def. Council,
555 U.S. 7 (2008) .....................................................................................13

Constitutional and Statutory Provisions
52 U.S.C. § 20302(a)(8)(A) ................................................................................26
Or. Const., Art. IV § 1(2)(c) .................................................................................8
Or. Const., Art. IV § 1(2)(e) ...............................................................................11
Or. Rev. Stat. § 250.125(5).................................................................................25
Or. Rev. Stat. § 250.127......................................................................................25
Or. Rev. Stat. § 250.127(5).................................................................................25
Or. Rev. Stat. § 250.131(2).................................................................................25
Or. Rev. Stat. § 251.205......................................................................................25
Or. Rev. Stat. § 253.065(1)(a) ............................................................................26
Or. Rev. Stat. § 254.085......................................................................................26
Or. Rev. Stat. §§ 251.205, 251.215 ....................................................................25
U.S. Const., Amend. I.............. 8, 9, 10, 12, 13, 14, 15, 16, 17, 18, 20, 22, 23, 24

Administrative Rules
Or. Admin. R. 165-014-0005..............................................................................11

Other Authorities
Secretary of State Elections Division, Financial Estimate Committee (FEC)
Meeting Schedule,
https://content.govdelivery.com/accounts/ORSOS/bulletins/2944fcc.....25
State Initiative and Referendum Manual
http://sos.oregon.gov/elections/Documents/stateIR.pdf...........................11
State Voters’ Pamphlet Manual ..........................................................................25

iii

EMERGENCY MOTION UNDER CIRCUIT RULE 27-3 FOR A STAY
PENDING APPEAL—RULING REQUESTED BY JULY 22, 2020
_______________
INTRODUCTION
Oregon’s constitution allows its citizens to propose constitutional
amendments by initiative for popular vote. To appear on the ballot, the
constitution requires the proponents of a measure to obtain signatures from
registered voters equal to “eight percent of the total number of votes cast for all
candidates for Governor” in the last gubernatorial election—here, 149,360
signatures. Or. Const. art. IV, § 1(2)(c). Those signatures must be submitted
“not less than four months before the election,” which for the November 2020
election was July 2, 2020. Id. § 1(2)(e).
On July 13, 2020, the district court (McShane, J.) issued a preliminary
injunction that will require the state1 to place a constitutional amendment on the
November 2020 ballot even though its proponents did submitted only a fraction
of the required number of signatures by July 2nd. Although Oregon
Constitution’s signature and deadline requirements are clear and without
exception, the court held that the First Amendment required Oregon to replace

1

This motion refers to “the state” because the state is the real party in
interest, even though the Secretary of State (in her official capacity) was the
nominal defendant in the district court.

9
its unambiguous signature requirement with a lesser requirement of the court’s
creation and to extend the deadline to a date chosen by the court.
This Court should immediately stay the preliminary injunction. The state
is likely to prevail on appeal because the signature and deadline requirements
do not implicate, much less violate, the First Amendment, even during the
pandemic. Restrictions on the manner in which signatures may be gathered are
subject to First Amendment scrutiny, because signature gathering is core
political speech. But the constitutional provisions challenged here do not
regulate the manner in which signatures are gathered. They regulate the
legislative process, not speech. As several other circuits have explicitly
recognized, such procedural rules do not implicate the First Amendment. In
ruling to the contrary, the district court encroached on the state’s sovereign
authority to determine for itself the procedures by which its own constitution is
to be amended. The balance of harms and public interest also favor keeping the
constitutionally mandated rules for initiatives in place rather than changing
them for one privileged initiative shortly before the election.
Although this Court recently denied a stay in Reclaim Idaho v. Little, No.
20-35584, the case for a stay is considerably stronger here. The preliminary
injunction in Reclaim Idaho was primarily about the manner in which
signatures are gathered to put an initiative on the ballot—specifically, whether

10
the state had to accept electronic signatures. Although the district court in that
case gave the state the option to place the measure on the ballot with fewer
signatures than usual, it pointedly refused to order the state to do so—expressly
“recognizing the State’s interest in upholding its conditions, specifically the
numerical and geographic requirements.” Reclaim Idaho v. Little, 2020 WL
3490216, at *11 (D. Idaho June 26, 2020). Although the state ultimately should
prevail in Reclaim Idaho as well, regulations governing the manner of
collecting signatures touch much more closely on the First-Amendmentprotected communications between signature gatherers and voters than the bare
numerical requirement at issue here, which does not implicate the First
Amendment at all. Moreover, the state defendants in Reclaim Idaho apparently
have the power under Idaho law to waive or amend the statutory requirements
for intitative petitions, id. at *8 and *10, unlike in this case. Only the people of
Oregon—not the Secretary of State—can amend the state’s constitution. And
unlike in Reclaim Idaho, an immediate stay is needed here to prevent a
constitutional amendment that does not meet the constitutionally required
signature threshold from appearing on the ballot.2

2

The United States Supreme Court is considering a motion for a stay
pending appeal in a case out of the Sixth Circuit, Whitmer v. SawariMedia,
LLC, No. 20A1, which also involves a district court order invalidating the
state’s signature and deadline requirements for initiatives. Michigan Governor
Footnote continued…

11
BACKGROUND
A.

To place a proposed constitutional amendment on the
November 2020 ballot, the Oregon Constitution requires proponents
to collect 149,360 signatures by July 2, 2020.
The Oregon Constitution allows individuals to propose constitutional

amendments to be submitted to a popular vote. Or. Const. art. IV, § 1(2)(c).
The constitution imposes two requirements to qualify a constitutional
amendment for the ballot that are relevant here.
First, the signature requirement: The proponents must file a petition with
the Secretary of State “signed by a number of qualified voters equal to eight
percent of the number of votes cast” in the last gubernatorial election. Id.
Second, the deadline requirement: The petition must be filed “not less
than four months before the election at which the proposed law or amendment
to the Constitution is to be voted upon.” Or. Const. art. IV, § 1(2)(e).
For the 2020 general election, those requirements mean that a proposed
constitutional amendment required filing a petition with 149,360 valid
signatures by July 2, 2020. See State Initiative and Referendum Manual at 5.3

(…continued)

Gretchen Whitmer has asked the Supreme Court to rule by July 17, 2020. If a
stay is granted in Whitmer, that will provide further support for a stay here.
3

The provisions of the Manual, which is available at
https://sos.oregon.gov/elections/Documents/stateIR.pdf, constitute
administrative rules. See Or. Admin. R. 165-014-0005.

12
B.

Plaintiffs collected less than half of the required signatures for
Initiative Petition 57 before the July 2nd deadline.
Initiative Petition (IP) 57 is a proposed constitutional amendment that

would create a redistricting commission in Oregon. See Davis Decl., Ex. B
(attached to this motion). IP 57 was approved for circulation on April 9, 2020.
Id. ¶ 12. By the July 2nd deadline, petitioners claimed to have collected a little
over 64,000 signatures, less than half of the constitutional requirement. Id. ¶
15.
C.

The district court issued a preliminary injunction requiring the
Secretary of State to place IP 57 on the ballot as long as plaintiffs
present 58,789 signatures by August 17th.
One of IP 57’s chief petitioners and five organizations that support IP 57

filed this lawsuit on June 30, 2020, two days before the deadline to submit
petition signatures. Plaintiffs requested a temporary restraining order extending
the deadline for submitting signatures for ballot initiatives and reducing the
number of signatures required. Mot. for TRO at 40. Plaintiffs argued that
although the state constitution’s signature and deadline requirements ordinarily
would pass muster under the First Amendment, they were unconstitutional as
applied to IP 57 because of the circumstances of the COVID-19 pandemic.
Reply in support of Mot. for PI at 5.
The district court treated the motion as a request for a preliminary
injunction, which it granted after a hearing. The court held that the signature

13
and deadline requirements violated the First Amendment as applied to IP 57,
because plaintiffs had been “reasonably diligent” in their attempt to meet the
signature and deadline requirements but those requirements “significantly
inhibit[ed]” their ability to place IP 57 on the ballot. Op. at 8-11. The district
court ordered the state either to place IP 57 on the ballot immediately or to do
so if plaintiffs produced just 58,789 valid signatures (about 39% of the
constitutional requirement of 149,360 signatures) by August 17th, six weeks
after the constitutional deadline. Id. at 13. The state objected to both proposed
remedies but explained that it understood the court’s decision to effectively
require the latter. Def. Notice in Response to Court Order (July 13, 2020).
ARGUMENT
In considering whether to grant a stay pending appeal, the Court must
consider four factors: (1) the applicant’s likelihood of success on the merits; (2)
whether the applicant will suffer irreparable injury; (3) the balance of hardships
to other parties interested in the proceeding; and (4) the public interest. Nken v.
Holder, 556 U.S. 418, 434 (2009). All four factors weigh in favor of a stay.
A.

The Secretary is likely to prevail on appeal, because the Oregon
Constitution’s signature and deadline requirements for initiative
petitions do not violate the First Amendment as applied to plaintiffs.
A preliminary injunction is an “extraordinary remedy never awarded as

of right.” Winter v. Nat. Res. Def. Council, 555 U.S. 7, 24 (2008). That

14
principle carries particular force in the elections context. See Lair v. Bullock,
697 F.3d 1200, 1214 (9th Cir. 2012) (“[G]iven the imminent nature of the
election, we find it important not to disturb long-established expectations that
might have unintended consequences.”). Moreover, “[w]hen a mandatory
preliminary injunction is requested, the district court should deny such relief
unless the facts and law clearly favor the moving party.” Stanley v. Univ. of S.
Cal., 13 F.3d 1313, 1320 (9th Cir. 1994) (quotation marks and citation omitted).
In granting a preliminary injunction, the district court concluded that the
signature and deadline requirements in the Oregon Constitution violate the First
Amendment as applied to IP 57. That conclusion is wrong as matter of law.
1.

Signature and deadlines requirements for initiatives do not
implicate the First Amendment, because they are legislative
rules rather than regulations of speech.

Plaintiffs’ entire legal theory is based on the First Amendment, but the
First Amendment simply is not implicated by signature and deadline
requirements for placing an initiative on the ballot. Accordingly, the federal
courts have no authority to enjoin those requirements at all—much less to
rewrite state law on the eve on an election.
The First Amendment does not limit the number of signatures a state can
choose to require for an initiative or the deadline for submitting those
signatures, because those requirements are fundamentally legislative rules

15
rather than regulation of speech. In Oregon, the people—when acting through
the initiative process—are a coequal legislative branch. See State v. Vallin, 434
P.3d 413, 419 (Or. 2019). The signature and deadline requirements are rules
governing how that branch operates, akin to a rule requiring a certain number of
legislators to agree to bring proposed legislation to the floor.
Every state is free to establish the procedural mechanisms by which laws
may be enacted and its state constitution may be amended. The right of voters
to legislate through initiative is one such mechanism that many states, including
Oregon, provide. But the state is free to define the procedural requirements that
must be met to effectuate that state-created right. Non-discriminatory, contentneutral ballot initiative requirements like the signature gathering requirements
here at issue do not implicate the First Amendment.
To be sure, gathering support for a ballot initiative is core political
speech, and thus laws that regulate the manner in which signature gathering is
done can implicate the First Amendment by regulating speech between a
signature gatherer and voter. But the constitutional provisions challenged in
this case are neutral and non-discriminatory requirements that establish the
minimum number of signatures needed to be gathered and the deadline for
submitting them. They regulate no speech.

16
The overwhelming weight of authority from other circuits that have
considered the issue concludes that such neutral procedural laws do not
implicate the First Amendment. See Molinari v. Bloomberg, 564 F.3d 587, 602
(2d Cir. 2009) (“As our Sister Circuits (and the Nebraska Supreme Court) have
recognized, plaintiffs’ First Amendment rights are not implicated by
referendum schemes per se[,] but by the regulation of advocacy within the
referenda process, i.e., petition circulating, discourse and all other protected
forms of advocacy.”); Initiative & Referendum Inst. v. Walker, 450 F.3d 1082,
1099 (10th Cir. 2006) (“Although the First Amendment protects political
speech incident to an initiative campaign, it does not protect the right to make
law, by initiative or otherwise.”); Marijuana Policy Project v. United States,
304 F.3d 82, 85 (D.C. Cir. 2002) (noting that the plaintiff “cites no case, nor are
we aware of one, establishing that limits on legislative authority—as opposed to
limits on legislative advocacy—violate the First Amendment. This is not
surprising, for although the First Amendment protects public debate about
legislation, it confers no right to legislate on a particular subject.”); Dobrovolny
v. Moore, 126 F.3d 1111, 1112–13 (8th Cir. 1997) (rejecting First Amendment
challenge to Nebraska constitutional provision requiring submission of
signatures to place measure on ballot equal to 10% of registered voters because
“the constitutional provision at issue here does not in any way impact the

17
communication of appellants’ political message or otherwise restrict the
circulation of their initiative petitions or their ability to communicate with
voters about their proposals”). Just last week, the Seventh Circuit reached a
similar conclusion, explaining that initiatives and referenda are “wholly a
matter of state law,” and that there would be no First Amendment issue if the
state decided to “skip all referenda for the 2020 election cycle”:
The federal Constitution does not require any state or local
government to put referenda or initiatives on the ballot. That is
wholly a matter of state law. If we understand the Governor’s
orders, coupled with the signature requirements, as equivalent to a
decision to skip all referenda for the 2020 election cycle, there is
no federal problem. Illinois may decide for itself whether a
pandemic is a good time to be soliciting signatures on the streets in
order to add referenda to a ballot.
Morgan v. White, ___ F.3d ___; 2020 WL 3818059, *2 (No. 20-1801) (7th Cir.
July 8, 2020) (per curiam) (citation omitted).
Those decisions reflect that the First Amendment’s Free Speech Clause is
about speech, not about legislative procedures. Rules about how many
signatures the proponents of a measure must collect to place it on the ballot do
not regulate speech.
None of that is to suggest that merely because the initiative power is a
state-created right that states are therefore free to regulate expressive conduct
associated with that right in any way it wants. See Meyer v. Grant, 486 U.S.
414, 424-25 (1988) (“[T]he power to ban initiatives entirely” does not include

18
“the power to limit discussion of political issues raised in initiative petitions.”).
But there is a difference between regulations that govern the manner in which
the initiative right, once created, can be effectuated, and laws that create or
define initiative right in the first place. It is up to the state to define the
initiative power by establishing the procedures by which an initiative becomes
law. Once that power is established, a right to speech is created, and
regulations that restrict that may right trigger the First Amendment. But laws
establishing the nature of the initiative power in the first instance are not
themselves speech regulations. The constitutional provisions here at issue are
ones that define what the initiative power is in the first place by setting forth the
procedures by which initiatives can become Oregon law. They do not implicate
the First Amendment. By treating them otherwise, the district court claimed for
the federal judiciary power that properly belongs to the sovereign state.
2.

Angle v. Miller does not support the district court’s ruling.

The district court’s ruling relied on this court’s decision in Angle v.
Miller, 373 F.3d 1122 (9th Cir. 2012). Op. at 7. But Angle did not answer the
question posed here, and the district court’s discussion and application of that
case are incorrect.
In Angle, the plaintiffs raised a facial challenge under the First
Amendment to a Nevada rule that required initiative proponents to meet a ten-

19
percent signature threshold in each of Nevada’s three congressional districts in
order to place an initiative on the ballot. Id. at 1126-27. In analyzing that rule,
the court considered whether the rule imposed a “severe burden” on the
plaintiffs’ speech, which would trigger heightened scrutiny, or whether the
burden was a lesser one, which would entail less exacting review. Id. at 1132.
In concluding that the rule did not impose a severe burden, the court
discussed two factors: whether the regulations limit one-on-one communication
between petition circulators and voters and whether the regulations “make it
less likely that proponents will be able to garner the signatures necessary to
place an initiative on the ballot.” Id. at 1132-33 (citing Meyer, 486 U.S. at
422). The Nevada rule in question did not limit one-on-one communication at
all and so did not impose a severe burden under that factor. Id. at 1132. As to
the second factor, the court noted that Meyer recognized that ballot access
restrictions may indirectly impact core political speech by preventing an issue
from become “the focus of statewide discussion.” Id. at 1133 (quoting Meyer,
486 U.S. at 423). The court then stated that “as applied to the initiative process,
we assume that ballot access restrictions place a severe burden on core political
speech, and trigger strict scrutiny, when they significantly inhibit the ability of
initiative proponents to place initiatives on the ballot.” Angle, 673 F.3d at 1133

20
(emphasis added). But under that factor, the plaintiffs failed to demonstrate that
the rule at issue severely burdened core political speech. Id.
Although Angle applied a First Amendment standard in upholding the
Nevada law, it merely “assume[d]” that the standard applied and concluded that
the law satisfied it. Id. Angle did not consider, much less address, the threshold
question whether the First Amendment was implicated at all—and it did not
have to, because the Nevada statute satisfied the First Amendment even if it
was implicated. The Nevada statute was arguably manner-of-collection
regulation, as it defined where signature collectors needed to go in the state, not
how many signatures needed to be collected in total. Angle thus did not answer
the question presented here, which is a question that other federal courts of
appeals around the country have resolved in favor of states.
The district court nonetheless relied on Angle to conclude that Oregon’s
constitutional requirements for signature gathering imposed a severe burden on
core political speech under both factors discussed in that case. First, the court
concluded that plaintiffs’ ability to gather signatures one-on-one was limited by
the pandemic and the Governor’s Executive Orders issued in response to the
pandemic, and so the application of Oregon’s constitutional requirements
imposed a burden on their speech. Op. at 7-8. Second, the court concluded that
plaintiffs could not place their initiative on the ballot because the state adhered

21
to the constitutional requirements and therefore burdened plaintiffs’ core
political speech. Both conclusions are wrong.
As to the restriction on one-on-one communication, the district court’s
reliance on the Governor’s Executive Orders—which plaintiffs did not
challenge—to conclude that enforcement of the constitutional requirements
restricted their speech is not supported by Angle or by Meyer. The question
under those cases is whether the challenged regulation—here the constitutional
requirements—limited one-on-one communication. Oregon’s signature and
deadline requirements do not restrict one-on-one communication in any way,
either facially or as applied to plaintiffs. See Reclaim Idaho, 2020 WL 3490216
at *8 (concluding that the first Angle factor did not apply because it was Idaho’s
management of COVID-19 and not the initiative requirements that limited oneon-one communication). Simply put, the district court’s reasoning was
fundamentally flawed because it targeted the wrong regulation. Although the
state disputes the district court’s conclusion that the Executive Orders restricted
one-on-one communication, even if that were true any restriction on speech
would follow from those orders and the pandemic—not from application of the
constitutional requirements for putting a measure on the ballot.
The district court also made a fundamental error in describing and
applying the second factor. First, neither Angle nor Meyer support the district

22
court’s assertion that core political speech is burdened when “the regulations
make it less likely that proponents can obtain the necessary signatures to place
the initiative on the ballot.” Op. at 7. Again, the court in Angle assumed—but
did not decide—that core political speech could be burdened by regulations
“when they significantly inhibit the ability of initiative proponents to place
initiatives on the ballot.” 673 F.3d at 1133. But the concern underlying that
line of inquiry is that signature gathering restrictions can indirectly limit speech
by making it less likely for an issue to become a matter of statewide discussion.
486 U.S. at 423. Under Meyer, a regulation on signature gathering not only
directly regulates speech but also may have an indirect effect on speech by
making it less likely that an issue will make it on to the statewide ballot. But
nothing in Meyer suggests that any procedural requirement that does not
regulate speech at all but happens to make it less likely for an issue to make it
on the ballot triggers First Amendment scrutiny. If that were the case, virtually
any procedural requirement for adopting legislation would be unlawful.
Neither Angle nor Meyer addressed whether a numerical signature
threshold or a deadline could be a restriction on core political speech. And even
if the standard from those cases controlled here, the district court badly
misapplied the standard. As with its conclusion concerning one-on-one
communication, the court reasoned that the state’s “insistence on strictly

23
applying the initiative requirements made it less likely that Plaintiffs could
obtain the necessary signatures.” Op. at 8. That circular reasoning is
fundamentally unsound. Any signature requirement beyond zero “make it less
likely that proponents will be able to garner the signatures necessary to place an
initiative on the ballot,” as does any deadline before election day. But the cause
of plaintiffs’ inability to timely “garner the necessary signatures” is not the fact
that plaintiffs must collect the necessary number of signatures by a deadline.
The district court was also wrong to blame to the Secretary of State for
failing to make accommodations for plaintiffs. Op. at 11. The Oregon
Constitution does not give the Secretary any authority to waive the number of
signatures required or the deadline for submission. The constitutional
requirements for citizen initiatives were put in place by the citizens themselves
and can be amended only by the same process, a process that the First
Amendment does not control.
There are other problems with the district court’s reasoning that the
Secretary intends to address in the merits briefs on appeal. But the points above
suffice to show that the preliminary injunction was legally flawed. Because the
district court erred in applying the First Amendment and erred in its
consideration of Angle and Meyer, the state has a strong likelihood of prevailing
on appeal and this Court should grant the stay.

24
B.

The remaining factors also favor a stay.
The Secretary and the public will suffer irreparable injury if the

preliminary injunction is not stayed. The government sustains irreparable harm
whenever it “is enjoined by a court from effectuating statutes enacted by
representatives of its people.” Maryland v. King, 567 U.S. 1301 (2012)
(Roberts, Circuit Justice). The preliminary injunction requires the Secretary to
place IP 57 on the ballot even though IP 57 does not satisfy the state
constitutional requirements for an amendment to the constitution. If a stay is
not granted before ballots are printed and mailed, Oregonians will be asked to
vote on a proposed constitutional amendment that should not be on the ballot.
The district court’s preliminary ruling thus threatens to enshrine permanently in
the Oregon Constitution an amendment that did not comply with the state
constitutional process for amendments. At the very least, there is likely to be
protracted litigation about the validity of the amendment. Indeed, if the ruling
is not promptly stayed, in December the federal courts may find themselves in
the position of telling Oregon—based on the First Amendment—what is or is
not in the state’s constitution.
The injunction will also impose burdens on entities that are not part of
this case. Preparations for the November 2020 election are already well

25
underway. A committee of five public officials started meeting July 8th4 to
produce a financial estimate of the “amount” and “description” of the “financial
effects” of the ballot measures by July 27th. See Or. Rev. Stat. § 250.127(5).
The committee then must hold a hearing with public comment and produce a
final statement by August 5th. Or. Rev. Stat. § 250.127. The resulting financial
estimate will be printed on the ballot. Or. Rev. Stat. § 250.125(5). Separate
committees will soon be appointed to produce official explanatory statements
for each ballot measure, which will be printed in the Voters’ Pamphlet. Or.
Rev. Stat. § 251.205. The explanatory statement process has similar deadlines
and public comment requirements as the financial estimate. See Or. Rev. Stat.
§§ 251.205, 251.215. The deadline for “any person” to petition the Oregon
Supreme Court to challenge either statement is August 10th. Or. Rev. Stat.
§ 250.131(2) (Financial Estimate); id. § 250.235(1) (Explanatory Statement).
And arguments for or against a ballot measure must be filed with the Secretary
by August 25th for inclusion in the official Voters’ Pamphlet mailed to every
Oregon household. See State Voters’ Pamphlet Manual at 4–5.

4

See Secretary of State Elections Division, Financial Estimate
Committee (FEC) Meeting Schedule,
https://content.govdelivery.com/accounts/ORSOS/bulletins/2944fcc.

26
By September 3rd, the Secretary of State must issue a directive listing the
federal and state contests and the language that will appear on the ballot for
each measure. See Or. Rev. Stat. § 254.085; Davis Decl. ¶ 37. Over the next
16 calendar days, each of Oregon’s 36 county election administrators then must
design between 6 and 250 unique ballots (listing only the local races in which a
voter is eligible to vote), print those ballots, and prepare military and overseas
ballots for mailing. Military and overseas ballots must be mailed by
September 19th and will be sent earlier if possible to ensure those voters have
time to vote. See 52 U.S.C. § 20302(a)(8)(A); Or. Rev. Stat. § 253.065(1)(a);
Davis Decl. ¶¶ 36–37.
If not stayed, the preliminary injunction will interfere with all of those
preparations. County election administrators will have to design ballots around
the measure. Persons who are for or against the measure will likely spend time
and money on efforts to support or oppose it. All of that effort will be wasted if
this Court reverses the preliminary injunction or if a court ultimately determines
that the measure, despite having been placed on the ballot, was invalid.
The need to avoid those harms significantly outweighs any harm to
plaintiffs in not having their initiative appear on the November 2020 ballot.
Any harm suffered by plaintiffs is largely the result of their own choices and the
pandemic, not the result of the Oregon Constitution or the Governor’s orders.

27
The petition to begin the process for IP 57 was not filed until November 2019,
and a court challenge to the ballot title (which was required before plaintiffs
could begin collecting signatures) was not resolved until March 27, 2020. See
Davis Decl. ¶ 12. IP 57 was approved for circulation on April 9, only 84 days
before the July 2nd deadline. Id. That is later in the election cycle than most
successful initiative campaigns even in years not affected by a pandemic: Of the
30 initiative petitions proposing constitutional amendments that have qualified
for the ballot since 2000, all but two were approved for circulate no later than
March of the election year. Id. ¶ 9.
The public interest also favors a stay. The preliminary injunction
fundamentally changes the requirements to amend the Oregon Constitution late
in an election cycle, after the two-year signature gathering period has ended.
The state has a strong interest in ensuring the efficient and orderly
administration of its elections and in applying consistent state constitutional
standards to each matter proposed for inclusion on the ballot. Changing the
rules at this late date—and especially just for one initiative—undercuts the
fairness of the election process, favors one measure over others that may be
similarly situated, and undermines state and county officials’ administration of
the election. And it very well could result in the federal courts having to tell

28
Oregon what Oregon’s constitution says and does not say, which is not their
proper role.
Such last-minute injunctions to election laws are strongly disfavored.
See Purcell v. Gonzalez, 549 U.S. 1 (2006) (per curiam). When an election is
“imminent,” it is “important not to disturb long-established expectations that
might have unintended consequences.” Lair, 697 F.3d at 1214 (issuing stay
pending appeal); see also Short v. Brown, 893 F.3d 671, 675 (9th Cir. 2018)
(“the Supreme Court has warned us many times to tread carefully where
preliminary relief would disrupt a state voting system on the eve of an
election”).
Because of the practical limitations caused by COVID-19, this will
probably be the most challenging election season in memory for state and local
elections officials. The district court’s preliminary injunction adds to their
burdens and, by shortening the timeframe to take various steps, increases the
likelihood of serious mistakes that affect the integrity of the election. The
balance of hardships and public interest weigh heavily in favor of a stay to
ensure an orderly November election.
C.

If the Court does not grant a stay, it should expedite the appeal so
that it can be decided before the end of August.
In the alternative, if the Court denies the motion for a stay pending

appeal, it should expedite consideration of this appeal so that a merits panel can

29
rule before the end of August. This Court recently did that in Reclaim Idaho v.
Little, No. 20-35584, which is scheduled for oral argument on August 10th.
Although a ruling by the end of August reversing the preliminary injunction
will not alleviate all of the harms discussed above, it might still allow the state
to pull IP 57 from the ballots before they are printed and mailed.
The state proposes the following briefing schedule:
 Opening brief on July 24, 2020.
 Answering brief on August 7, 2020.
 Reply brief, if any, on whatever schedule would allow the court to hold
oral argument by videoconference on August 14 or 19, 2020, if the court
holds argument.

30
CONCLUSION
This Court should stay the preliminary injunction pending appeal. If it
does not do so, it should at least expedite the appeal to allow a ruling on the
merits before the end of August.
Respectfully submitted,
ELLEN F. ROSENBLUM
Attorney General
/s/ Benjamin Gutman
_________________________________
BENJAMIN GUTMAN #160599
Solicitor General
benjamin.gutman@doj.state.or.us
MICHAEL CASPER
CARSON WHITEHEAD
Assistant Attorneys General
Attorneys for Defendant-Appellant

No. 20A21

In the Supreme Court of the United States
BEVERLY CLARNO, Oregon Secretary of State,
Applicant,
v.
PEOPLE NOT POLITICIANS OREGON, COMMON CAUSE, LEAGUE OF WOMEN
VOTERS OF OREGON, NAACP OF EUGENE/SPRINGFIELD, INDEPENDENT
PARTY OF OREGON, and C. NORMAN TURRILL,
Respondents.
APPENDIX J TO OPPOSITION TO APPLICATION FOR STAY
Order
People Not Politicians Oregon et al. v. Clarno, No. 20-35630 (9th Cir.)

STEPHEN ELZINGA
SHERMAN, SHERMAN,
JOHNNIE & HOYT, LLP
693 Chemeketa Street NE
Salem, OR 97301
KATHAY FENG
DAN VICUNA
COMMON CAUSE
453 S. Spring Street, Suite 401
Los Angeles, CA 90013

R. ADAM LAURIDSEN
JAY RAPAPORT
Counsel of Record
DAVID J. ROSEN
TARA M. RANGCHI
KEKER, VAN NEST &
PETERS LLP
633 Battery Street
San Francisco, CA 94111
(415) 391-5400
jrapaport@keker.com

Counsel for Respondents

Case: 20-35630, 07/22/2020, ID: 11762593, DktEntry: 13, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JUL 22 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

PEOPLE NOT POLITICIANS OREGON; et No. 20-35630
al.,
D.C. No. 6:20-cv-01053-MC
Plaintiffs-Appellees,
District of Oregon,
Eugene
v.
ORDER
BEVERLY CLARNO, Oregon Secretary of
State,
Defendant-Appellant.
Before: THOMAS, Chief Judge, SCHROEDER and CALLAHAN, Circuit Judges.
We expedite this appeal. The opening brief is due July 24, 2020. The
answering brief is due August 7, 2020. The optional reply brief is due by 9:00 am
Pacific Time on August 10, 2020.
No streamlined extensions of time will be approved. See 9th Cir. R. 312.2(a)(1). No written motions for extensions of time under Ninth Circuit Rule 312.2(b) will be granted absent extraordinary and compelling circumstances.
The Clerk shall place this case on the calendar for August 2020. See 9th Cir.
Gen. Order 3.3(g).

No. 20A21

In the Supreme Court of the United States
BEVERLY CLARNO, Oregon Secretary of State,
Applicant,
v.
PEOPLE NOT POLITICIANS OREGON, COMMON CAUSE, LEAGUE OF WOMEN
VOTERS OF OREGON, NAACP OF EUGENE/SPRINGFIELD, INDEPENDENT
PARTY OF OREGON, and C. NORMAN TURRILL,
Respondents.
APPENDIX K TO OPPOSITION TO APPLICATION FOR STAY
Notice of Oral Argument
People Not Politicians Oregon et al. v. Clarno, No. 20-35630 (9th Cir.)

STEPHEN ELZINGA
SHERMAN, SHERMAN,
JOHNNIE & HOYT, LLP
693 Chemeketa Street NE
Salem, OR 97301
KATHAY FENG
DAN VICUNA
COMMON CAUSE
453 S. Spring Street, Suite 401
Los Angeles, CA 90013

R. ADAM LAURIDSEN
JAY RAPAPORT
Counsel of Record
DAVID J. ROSEN
TARA M. RANGCHI
KEKER, VAN NEST &
PETERS LLP
633 Battery Street
San Francisco, CA 94111
(415) 391-5400
jrapaport@keker.com

Counsel for Respondents

***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits attorneys of record
and parties in a case (including pro se litigants) to receive one free electronic copy of all documents filed
electronically, if receipt is required by law or directed by the filer. PACER access fees apply to all other users. To
avoid later charges, download a copy of each document during this first viewing.
United States Court of Appeals for the Ninth Circuit
Notice of Docket Activity
The following transaction was entered on 07/28/2020 at 3:38:29 PM PDT and filed on 07/28/2020
Case Name:

People Not Politicians Oregon, et al v. Beverly
Clarno

Case Number: 20-35630

Docket Text:
Notice of Oral Argument on Thursday, August 13, 2020 - 09:30 A.M. - AK Ross Historic Courtroom - Scheduled Location:
Anchorage OldFedBldg AK.
The hearing time is the local time zone at the scheduled hearing location, even if the argument is fully remote.

View the Oral Argument Calendar for your case here.
NOTE: Although your case is currently scheduled for oral argument, the panel may decide to submit the case on the briefs
instead. See Fed. R. App. P. 34. Absent further order of the court, if the court does determine that oral argument is required
in this case, any argument may be held remotely with all of the judges and attorneys appearing by video or telephone.
Travel to a courthouse will not be required. If the panel determines that it will hold oral argument, the Clerk's Office will be in
contact with you directly at least two weeks before the set argument date to make any necessary arrangements for remote
appearance.
Be sure to review the GUIDELINES for important information about your hearing, including when to be available (30 minutes
before the hearing time) and when and how to submit additional citations (filing electronically as far in advance of the
hearing as possible).
If you are the specific attorney or self-represented party who will be arguing, use theACKNOWLEDGMENT OF HEARING
NOTICE filing type in CM/ECF no later than 21 days before Thursday, August 13, 2020. No form or other attachment is
required. If you will not be arguing, do not file an acknowledgment of hearing notice.[11769751]. [20-35630] (AW)
Notice will be electronically mailed to:
Stephen Elzinga, Attorney: steve@shermlaw.com, sbragg@shermlaw.com, michael@shermlaw.com
Benjamin N. Gutman: benjamin.gutman@doj.state.or.us, ninthcircuitnotifications@doj.state.or.us
Robert Adam Lauridsen: alauridsen@keker.com, efiling@keker.com, rcirelli@keker.com, adam-lauridsen2496@ecf.pacerpro.com, roseann-cirelli-2838@ecf.pacerpro.com
Honorable Michael J. McShane, District Judge: michael_mcshane@ord.uscourts.gov, david_svelund@ord.uscourts.gov
Ms. Tara Melody Rangchi: trangchi@keker.com, lmandin@keker.com, tara-rangchi-7328@ecf.pacerpro.com, laure-mandin6675@ecf.pacerpro.com
Mr. Jay Rapaport, Attorney: jrapaport@keker.com, efiling@keker.com, dcurran@keker.com, jay-rapaport5266@ecf.pacerpro.com, dawn-curran-3389@ecf.pacerpro.com
Mr. David Justin Rosen: drosen@keker.com, efiling@keker.com, dcurran@keker.com, david-rosen2944@ecf.pacerpro.com, dawn-curran-3389@ecf.pacerpro.com

